<html>
<title> - THE ADMINISTRATION'S FISCAL YEAR 2011 RESEARCH AND DEVELOPMENT BUDGET PROPOSAL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                 THE ADMINISTRATION'S FISCAL YEAR 2011
                RESEARCH AND DEVELOPMENT BUDGET PROPOSAL

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 24, 2010

                               __________

                           Serial No. 111-78

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
55-836PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
JOHN GARAMENDI, California           MICHAEL T. McCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY













                            C O N T E N T S

                           February 24, 2010

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........    11
    Written Statement............................................    11

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    14

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    15

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    16

                               Witnesses:

Dr. John P. Holdren, Assistant to the President for Science and 
  Technology; Director of the White House Office of Science and 
  Technology Policy; Co-Chair of the President's Council of 
  Advisors on Science and Technology
    Oral Statement...............................................    17
    Written Statement............................................    21

             Appendix 1: Answers to Post-Hearing Questions

Dr. John Holdren, Assistant to the President for Science and 
  Technology; Director of the White House Office of Science and 
  Technology Policy; Co-Chair of the President's Council of 
  Advisors on Science and Technology.............................    60

                Appendix 2: Re-Energyse Funding Profile

RE-ENERGYSE (Regaining our Energy science and Engineering Edge) 
  Funding Profile by Subprogram..................................    70

            Appendix 3: Scientific Integrity Correspondence

Letter to Director John P. Holdren from Representative Paul C. 
  Broun, M.D., Ranking Member of Subcommittee on Investigations 
  and Oversight, dated July 13, 2009.............................    92

Letter to Director John P. Holdren from Representative Paul C. 
  Broun, M.D., Ranking Member of Subcommittee on Investigations 
  and Oversight, dated October 2, 2009...........................    98

Letter to Director John P. Holdren from Representative Paul C. 
  Broun, M.D., Ranking Member of Subcommittee on Investigations 
  and Oversight, dated December 1, 2009..........................   100

Letter to Representative Paul C. Broun, M.D., from John P. 
  Holdren, Director, Office of Science and Technology Policy, 
  dated February 23, 2010........................................   131

 
 THE ADMINISTRATION'S FISCAL YEAR 2011 RESEARCH AND DEVELOPMENT BUDGET 
                                PROPOSAL

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2010

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 9:30 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                            hearing charter

                     U.S. HOUSE OF REPRESENTATIVES

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                      The Administration's FY 2011

                Research and Development Budget Proposal

                      wednesday, february 24, 2010
                          9:30 a.m.-11:30 a.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, February 24, 2010, the Committee on Science and 
Technology will hold a hearing to examine the Administration's proposed 
fiscal year (FY) 2011 funding for Federal research, development, 
demonstration, and commercial application programs, in particular at 
agencies within the jurisdiction of the Committee. In addition, in 
preparation for a reauthorization of the 2007 America COMPETES Act, the 
Committee will examine the status of programs authorized in the 2007 
Act, as reflected in the Administration's budget request.

2. Witness

Dr. John Holdren is the Assistant to the President for Science and 
Technology and Director of the Office of Science and Technology Policy 
(OSTP). He also serves as Co-Chair of the President's Council of 
Advisors on Science and Technology. Dr. Holdren is on leave from 
Harvard, where he is the Teresa and John Heinz Professor of 
Environmental Policy at the Kennedy School of Government and Director 
of the Science, Technology, and Public Policy Program at the School's 
Belfer Center for Science and International Affairs.

3. Overview of FY 2011 R&D Budget Request

    The President's FY 2011 budget proposes a total of $147.7 billion 
for research and development (R&D) across all agencies, a $343 million 
or 0.2 percent increase over the FY 2010 enacted level.\1\ The budget 
would decrease for defense-related R&D, and increase by $3.7 billion 
(5.9 percent) to $66 billion for nondefense R&D, most of which is 
categorized as ``basic and applied research'' ($61.6 billion). Funding 
for all research, development, demonstration, commercial application 
and science, technology, engineering and mathematics (STEM) education 
activities at agencies and offices under the Committee's jurisdiction 
totals approximately $44 billion in the FY 2011 request.\2\
---------------------------------------------------------------------------
    \1\ The FY 2010 enacted level does not include any carryover from 
the estimated $21.5 billion in R&D funding in the American Recovery and 
Reinvestment Act, which included $10.4 billion for NIH; $3.0 billion 
for the NSF; $5.5 billion for DOE; $580 million for the NIST; $1.0 
billion for NASA; and $830 million for the NOAA, all to be spent by the 
end of FY 2010.
    \2\ This is just a rough estimate across the agencies/offices under 
S&T (sole or joint) legislative jurisdiction and does not include all 
activities at all agencies to which we might have a claim in the case 
of legislation on those activities.
---------------------------------------------------------------------------
    The FY 2011 request would keep the three science agencies 
authorized in the COMPETES Act--the National Science Foundation (NSF), 
the National Institute of Standards and Technology (NIST), and the 
Department of Energy's (DOE) Office of Science on a 10-year doubling 
path initiated in theory in 2007 but not realized until 2009. The 
Administration is requesting a total of $13.3 billion for those three 
agencies to keep them on track for doubling by 2017. It maybe helpful 
to think of this growth path in terms of its annual rate of increase, 
which for 10 years equals 7 percent. The COMPETES Act put those same 
three agencies on a seven-year doubling path (10 percent annual 
growth), reflecting a compromise between the House's proposal for 10 
years and the Senate's proposal for five years.
    The Administration's FY 2011 budget also places priority on STEM 
education across the agencies. The total federal funding for STEM at 
all levels would be $3.7 billion in FY 2011, including $1 billion, 
representing a 40 percent increase, for K-12 STEM education. Of that $1 
billion, nearly half would be at the Department of Education: $300 
million for the proposed Effective Teaching and Learning in STEM 
program, and $150 million through the Investing in Innovation (i3) 
program. The rest of the funding is spread across the Federal science 
agencies. Three STEM priorities of note are: RE-ENERGYSE (more on that 
below under the DOE summary), strong support for graduate research 
fellowships, and increased focus on research and evaluation.

4. Summary of 2007 COMPETES Act

    The America COMPETES Act (P.L. 110-69) was signed into law by 
President Bush on August 9, 2007. A response to the 2005 National 
Academies' report Rising Above the Gathering Storm, COMPEIES seeks to 
ensure U.S. students, teachers, businesses, and workers are prepared to 
continue leading the world in innovation, research, and technology. The 
law implemented recommendations from the Gathering Storm report, and 
specifically:

        <bullet>  Authorizes $33.6 billion over FY 2008-10 for STEM 
        research and education programs across the Federal government.

        <bullet>  Keeps research programs at NSF, NIST and the DOE 
        Office of Science on a near-term doubling path;

        <bullet>  Helps to prepare new teachers and provide current 
        teachers with STEM content and teaching skills through NSF's 
        Noyce Teacher Scholarship Program and Math and Science 
        Partnerships Program;

        <bullet>  Expands programs at NSF to enhance the undergraduate 
        education of the future science and engineering workforce, 
        including at two-year colleges;

        <bullet>  Expands early career graduate-level grant programs 
        and provides additional support for outstanding young 
        investigators at NSF and DOE;

        <bullet>  Creates the Technology Innovation Program (TIP) at 
        NIST (replacing the existing Advanced Technology Program or 
        ATP) to fund high-risk, high-reward, pre-competitive technology 
        development with high potential for public benefit;

        <bullet>  Puts the Manufacturing Extension Partnership (MEP), 
        which provides cost-shared technical assistance to small 
        manufacturers to modernize their operations, on a path to 
        doubling over 10 years;

        <bullet>  Establishes an Advanced Research Projects Agency for 
        Energy (ARPA-E), a nimble and semiautonomous research agency at 
        DOE to engage in high-risk, high reward energy research;

        <bullet>  Includes provisions throughout the bill to help 
        broaden participation by women and minorities in science and 
        engineering fields at all levels; and

        <bullet>  Strengthens interagency planning and coordination for 
        research infrastructure and information technology (i.e. high-
        speed computing).

5. Descriptions of Agency R&D Budgets

DEPARTMENT OF ENERGY

    The Department of Energy supports a wide range of basic and applied 
research activities and world-class research facilities within the 
Science and Technology Committee's jurisdiction.

The Office of Science

    The total FY 2011 budget request for the Office of Science (SC) is 
$5.1 billion, a 4.4 percent increase ($217 million) over FY 2010 
enacted level. SC's responsibilities are in three main areas: selection 
and management of research; operation of world-class, state-of-the-art 
scientific facilities; and design and construction of new facilities. 
SC supports basic research in the following areas: fundamental research 
in energy, matter, and the basic forces of nature; biological systems; 
climate change and the environmental consequences of energy production, 
development, and use; fundamental science that supports the foundations 
for new energy technologies and environmental mitigation; a knowledge 
base for fusion as a potential future energy source; and advanced 
computational and networking tools critical to research. The Office of 
Science also supports several ongoing interagency initiatives such as 
the U.S. Global Change Research Program ($191.2 million); the Climate 
Change Technology Program ($706.2 million); Networking and Information 
Technology Research and Development ($461.9 million); and the National 
Nanotechnology Initiative ($331.3 million).

Advanced Research Projects Agency_Energy (ARPA-E)

    The Administration requests approximately $300 million for ARPA-E 
to support new projects and program direction. As envisioned by the 
Gathering Storm report, and authorized by the America COMPETES Act, the 
Advanced Research Projects Agency--Energy (ARPA-E) is responsible for 
funding specific high-risk, high-payoff, game-changing R&D projects to 
meet the Nation's long-term energy challenges. The mission of ARPA-E is 
to overcome the long-term and high-risk technological barriers in the 
development of energy technologies by sponsoring research and 
technology development that industry alone is unlikely to undertake.
    The Omnibus Appropriations Act of 2009 provided $15.0 million to 
stand up the ARPA-E program, and the 2009 Recovery Act provided $400 
million to carry out program activities through FY 2010. In FY 2009, 
ARPA-E released its first Funding Opportunity Announcement, and 
received 3700 responses. Ultimately 37 awardees were chosen. Proposals 
for the second round of funding were due in mid-January and despite the 
narrow technical scope the agency still received over 600 proposals. A 
third funding opportunity will be released in the spring of 2010.

Nuclear Energy

    The Administration request for the Office of Nuclear Energy (NE) 
R&D is $503 million, an eight percent increase ($37 million) over the 
FY 2010 enacted level, with close to 80 percent of that request 
dedicated to the Fuel Cycle R&D and Reactor Concepts RD&D programs. The 
Administration has reorganized NE to focus primarily on closing the 
nuclear fuel cycle and developing advanced nuclear reactor 
technologies. These changes include, a zeroing out of the Nuclear Power 
2010 program, moving the Generation IV Nuclear Energy Systems program 
into the newly created Reactor Concepts RD&D program, and the creation 
of the Nuclear Energy Enabling Technologies (NEET) program to develop 
cross-cutting technologies. In addition to the reorganization of NE's 
funding and programming, the President recently announced the formation 
of a Blue Ribbon Panel to examine alternative solutions to waste 
storage and issue a final report in two years.

Energy Efficiency and Renewable Energy

    The Administration's proposal of $2.35 billion for the Office of 
Energy Efficiency and Renewable Energy (EERE) represents a 5 percent 
($112 million) increase from the FY 2010 enacted level. The 
Administration proposes significant increases for investment in large-
scale demonstrations in biopower, concentrating solar power, offshore 
wind, and advanced conventional water power. Vehicle technology 
research would also receive a significant increase, while hydrogen 
related research would fall. Energy efficiency activities would 
continue to support R&D for innovative new building technologies and a 
new focus on retrofitting existing buildings.

Fossil Energy

    The Office of Fossil Energy's budget was reduced by $191 million, 
reflecting a commitment to carbon capture and sequestration (CCS) 
technology development and a shift in focus away from natural gas and 
oil R&D. Neither the Natural Gas Technologies program nor the 
Unconventional Fossil Energy Technologies program received funding and 
the gas hydrates initiative has been shifted over to the Office of 
Science.

Energy Innovation Hubs

    The FY 2011 budget request proposes funding of $34 million for the 
establishment of a new Energy Innovation Hub to specialize in Batteries 
and Energy Storage. This is in addition to requests of $24 million each 
for three ongoing hubs initiated in FY 2010--Fuels from Sunlight; 
Energy Efficient Buildings; and Nuclear Modeling and Simulation. The 
new Batteries and Energy Storage Hub will be housed under the Office of 
Science--Basic Energy Sciences program.
    Plans for eight Energy Innovation Hubs were announced in FY 2010 
with proposed budgets of approximately $25 million each to support very 
large interdisciplinary teams focused on overcoming specific energy 
technology challenges. No federal funds for Hubs can be used for 
construction of permanent infrastructure, and all awardees must re-
compete every five years.

RE-ENERGYSE

    For the second year in a row the Administration is including a 
proposal to fund RE-ENERGYSE (Regaining our ENERGY and Science and 
Engineering Edge) with a suggested appropriation of $55 million for FY 
2011. This would support a broad range of workforce education and 
training activities at universities and community colleges for students 
interested in pursuing careers in energy. RE-ENERGYSE is intended to be 
a DOE-wide initiative. However, the majority of funding--$50 million--
comes out of EERE, with an additional $5 million requested under the 
Nuclear Energy program. The National Science Foundation is proposing to 
contribute an additional $19 million through five existing NSF 
programs, although this $19 million approximates what NSF is already 
spending on energy specific proposals under those programs.

NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    The FY 2011 budget request for NASA is $19.0 billion. The proposal 
represents an increase of 1.5 percent over the enacted FY 2010 
appropriation of $18.7 billion for NASA. The President's FY 2011 
request for NASA includes a projected increase in NASA's topline budget 
of $6 billion over five years as compared to the FY 2010 request 
runout. Specifically, the FY 2011 budget request proposes $19.45 
billion for FY 2012, $19.96 billion for FY 2013, $20.6 billion for FY 
2014, and $20.99 billion for FY 2015. Within the proposed FY 2011 
budget for NASA, an additional $600 million in FY 2011 is provided to 
ensure the safe completion of the Space Shuttle manifest through the 
first quarter of FY 2011, if needed. The budget request also assumes 
extension of the operations and utilization of the International Space 
Station from 2016 to at least 2020. However, the Constellation Program, 
which includes the Ares 1 crew launch vehicle and the Orion crew 
exploration vehicle, would be cancelled under the proposed budget 
request. In so doing, the budget request does not support the goal of 
returning Americans to the Moon by 2020 that was articulated in the FY 
2010 budget request. In its place, the Administration proposes three 
new technology initiatives that total $13.9 billion over five years 
that it describes as exploration-related and proposes to spend $6 
billion over five years in the development of commercial human 
spaceflight vehicles. The budget also initiates an agency-wide space 
technology program that is incorporated into a new Aeronautics and 
Space Research and Technology account, and provides an increase of 
approximately $1.8 billion over four years for Earth observations and 
climate satellites and research, as compared to the FY 2010 request.
    The FY 2011 budget request appears to be responsive to the NASA 
Authorization Act of 2008 [P.L. 110-422] in a number of areas, but 
diverges markedly from other areas of policy direction in the Act. 
Areas where the budget reflects direction and priorities established in 
the 2008 Act include: support for NASA's Earth Science Decadal Survey 
missions; support for aeronautics R&D on ``green aviation''; support 
for extension of the operation and utilization of the International 
Space Station to at least 2020; and funding for exploration-related 
technology development activities. In addition, the request provides 
initial funding, in combination with funds requested for DOE, for 
restarting the domestic production of plutonium-238. The 
Administration's request for FY 2011 diverges from the 2008 Act in its 
proposed cancellation of the Constellation Program and in its 
investment in the development of commercial crew human spaceflight 
vehicles as the only potential direct U.S. access to the International 
Space Station, following the retirement of the Shuttle. The 2008 Act 
had made clear that the Congressional intent for a congressionally 
authorized commercial crew initiative ``not come at the expense of full 
funding of the amounts authorized . . . and for future fiscal years, 
for Orion Crew Exploration Vehicle development, Ares I Crew Launch 
Vehicle development, or International Space Station cargo delivery.'' 
In addition, while the FY 2011 request for NASA focuses heavily on 
advanced technology development, the request does not propose funding 
for advanced technology development within the Science Mission 
Directorate, as directed in the 2008 Act.

NATIONAL SCIENCE FOUNDATION

    The National Science Foundation budget request for FY 2011 totals 
$7.424 billion, $552 million or 8.0 percent more than FY 2010 funding 
(not including any 2010 carryover in the $3.0 billion included for NSF 
in the 2009 Recovery Act). However, when funding for U.S. Coast Guard 
Icebreakers ($54 million) is counted appropriately, the real growth is 
7.2 percent.\3\ This level of funding keeps NSF on a 10-year doubling 
path. NSF provides approximately 22 percent of support for basic 
research at U.S. colleges and universities and is second only to NIH in 
support for all academic research. The budget for NSF is divided into 
three main accounts: Research and Related Activities, Education and 
Human Resources, and Major Research Equipment and Facilities 
Construction.
---------------------------------------------------------------------------
    \3\ In 2005, NSF signed an MOU with the US Coast Guard (USCG) in 
which NSF agreed to take over M&O budgetary authority for USCG 
Icebreakers operating in the Arctic and Antarctic. The rationale at the 
time was that 90+ percent of the USCG icebreakers time was dedicated to 
supporting NSF's science missions at the Poles. In FY 2010, the 
Appropriators required that budgetary authority be shifted back to USCG 
(P.L. 111-117). As a result, $54 million is excluded from the FY 2010 
NSF budget total, thereby obscuring the true growth in funding for 
NSF's programs.

---------------------------------------------------------------------------
Research and Related Activities

    The Administration's budget would provide $6.02 billion for 
Research and Related Activities (R&RA) in FY 2011, an increase of $401 
million or 7.1 percent over FY 2010 funding (NSF budget documents 
report 8.2 percent growth--see footnote on icebreakers). R&RA is made 
up primarily of six disciplinary directorates. The largest relative 
increases went to Engineering (+11 percent) and Computer and 
Information Science and Engineering (+10.6 percent). Geosciences, which 
funds atmospheric, earth and ocean sciences, including most of NSF's 
climate change research; and Biological Sciences, which funds 68 
percent of all non-medical academic research in the life sciences, 
including environmental biology, also saw greater than 7 percent 
increases. Social, Behavioral and Economic Sciences received a 5.3 
percent increase, and the Mathematical and Physical Sciences 
Directorate, the largest by far at NSF with a proposed $1.4 billion in 
FY 2011, received a 4.3 percent increase.
    The Administration's R&RA priorities for FY 2011 included a 
significant increase in funding for three programs labeled by NSF as 
``innovation'' programs, including Partnerships for Innovation ($19.2 
million), Science and Engineering Beyond Moore's Law ($70.2 million), 
and NSF's Centers programs ($313.8 million across NSF). The cross-
cutting area of research that received the most significant boost in 
the FY 2011 budget is climate change science. The Administration 
proposes $370 million for NSF's contribution to the U.S. Global Change 
Research Program.

Education and Human Resources
    The Education and Human Resources (EHR) Directorate, which funds 
education and broadening participation programs at all levels ``from K 
to gray,'' would be funded at $892 million in FY 2011, an increase of 
only $19.2 million or 2.2 percent over FY 2010 funding. The 
Administration continues to offer a mixed message regarding this 
treatment of EHR relative to the healthy increase for R&RA. On the one 
hand, they point out that funding for EHR alone represents an 
incomplete picture of the many education and training programs and 
activities distributed across NSF. On the other hand, they maintain 
that NSF is primarily a research agency and that the Department of 
Education (DoED) has a greater responsibility for education, especially 
at the K-12 level. Significant funding ($450 million) is requested for 
STEM education at DoED in the FY 2011 budget.
    In the 2007 COMPETES Act, the Committee expanded teacher training 
programs at NSF, including the Noyce Teacher Scholarship Program and 
the Math and Science Partnerships Program (MSP). In the FY 2011 budget, 
Noyce would be funded at $55 million, the same level since FY 2009, and 
MSP would be funded at $58.2 million, the same level as in FY 2010 and 
a small decrease from FY 2009 funding. Both Noyce and MSP received 
significant funding in the Recovery Act ($60 million and $25 million, 
respectively).
    Of particular note in the ERR budget is the proposed restructuring 
of programs to broaden participation in STEM at the undergraduate 
level. NSF is proposing a new comprehensive broadening participation 
program that builds on three existing programs: Historically Black 
Colleges and Universities Undergraduate Program (HBCU-UP), Louis Stokes 
Alliances for Minority Participation (LSAMP) and Tribal Colleges 
Undergraduate Program (TCUP), and newly invites proposals from Hispanic 
Serving Institutions, consistent with the mandate in Sec. 7033 of the 
COMPETES Act. Funding for this newly consolidated program would be $103 
million in FY 2011, a $13 million or 14.4 percent increase from the 
total FY 2010 funding for HBCU-UP, LSAMP and TCUP.

Major Research Equipment and Facilities Construction (MREFC)

    The MREFC request for FY 2011 is $165 million, an increase of $41 
million from FY 2010. MREFC also received $400 million in the Recovery 
Act to initiate construction on three projects, two of which will 
continue to receive funding in FY 2011. The only new start in FY 2011 
is the National Ecological Observatory Network (NEON), which passed 
final design review in November.

NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    The FY 2011 NIST Budget Request proposes a funding level of $918.9 
million, a 7.3 percent increase over the FY 2010 enacted budget. The 
budget would provide $584.5 million for NIST's core Scientific and 
Technical Research and Services (STRS); $124.8 million for Construction 
of Research Facilities (CRF); $129.7 million for the Manufacturing 
Extension Partnership (MEP) program; and $79.9 million for the 
Technology Innovation Program (TIP). The NIST FY 2011 budget request 
reflects the Administration's overarching priorities to promote U.S. 
innovation and competitiveness in energy and green technology, 
manufacturing, healthcare, cyber-security, and disaster resilient 
buildings and infrastructure.

Research and Facilities

    The FY 2011 NIST budget requests $584.5 million for the agency's 
Scientific and Technical Research Services (STRS). The STRS increase of 
$69.4 million (13.5 percent) over FY 2010 encompasses a number of new 
initiatives to address the critical national priorities mentioned 
above. For instance, the request includes $10 million for a new Green 
Manufacturing and Construction initiative, focused on the development 
of accurate metrics to assess environmental sustainability in 
manufacturing, and on research and measurement data to better assess 
the energy performance of buildings. In healthcare, in addition to 
continuing work on Healthcare Information Technology standards, the 
budget also includes a $10 million initiative to support measurement 
science for the development of complex biologic drugs.
    The FY 2011 budget request for CRF is $124.8 million, a 15.1 
percent decrease from the FY 2010 enacted budget. Last year's budget 
included $47 million in Congressionally directed funding, which the 
agency did not request this year. The requested CRF funds would support 
completion of the Boulder lab renovations and address maintenance needs 
at the Gaithersburg Laboratories.

Industrial Technology Services (ITS)
    The $129.7 million request for the MEP program is a four percent 
increase from FY 2010 enacted level. The MEP program is a public/
private partnership in all 50 states and Puerto Rico that provides 
technical assistance for small manufacturers to modernize their 
operations and adapt to foreign competition. MEP Centers are supported 
by equal contributions from Federal funds, state funds, and client 
fees. The increase in the FY 2011 budget proposal would direct funds to 
innovation services for small and medium-sized manufacturers to 
accelerate technology adoption, promote environmentally sustainable 
practices, support market diversification, and improve workforce 
capabilities. The FY 2011 request for the Technology Innovation Program 
(TIP) is $79.9 million, a $10 million increase over FY 2010 enacted. 
TIP awards cost-shared grants to small companies and joint ventures for 
the development of high-risk, high-reward technologies that meet 
critical national needs.

NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    The National Oceanic and Atmospheric Administration's (NOAA) budget 
request for FY 2011 is $5.55 billion, a 17 percent ($806 million) 
increase over the FY 2010 enacted level. The bulk of this increase is 
allotted for the National Environmental Satellite Data Information 
Systems (NESDIS) office, and more specifically for the Joint Polar 
Satellite System (formerly--National Polar-orbiting Operational 
Environmental Satellite System (NPOESS)). Specifically, NOAA is 
requesting an increase of $678.6 million to $1.061 billion for the new 
Joint Polar Satellite System. The increased funding will permit the 
agency to initiate work on its first satellite for mid-afternoon orbit 
coverage under the program. The balance of the funds permit NOAA to 
complete and launch the NPOESS Preparatory Project (NPP) satellite, 
which will now bridge the gap between NOAA's current satellites and the 
new generation. Additional detail on NPOESS restructuring is provided 
in Section 6 below.

DEPARTMENT OF HOMELAND SECURITY

    The FY 2011 budget for the Department of Homeland Security Science 
and Technology Directorate (DHS S&T) would increase by 0.5 percent from 
FY 2010 enacted. However, this increase includes the transfer of 
research programs from the DHS Domestic Nuclear Detection Office (DNDO) 
to DHS S&T. When not including the new radiological and nuclear 
research portfolio, the DHS S&T budget would decrease by 12 percent. 
Overall, research priorities remain similar to previous years and the 
budget cut is enacted uniformly across the divisions with one 
exception: the Infrastructure and Geophysical Division was cut by 50 
percent, eliminating two Congressionally directed programs that 
supported local, community-based terrorism response and mitigation 
research programs. The move of radiological and nuclear research from 
DNDO to S&T will consolidate all DHS basic research within S&T and 
increase the efficiency and effectiveness of the research.
    Overall, the DHS DNDO budget decreased by 20 percent, with the 
majority of this budget cut coming from the transfer of radiological 
and nuclear research to S&T. Additionally, DNDO is shifting priorities 
away from the research, development and deployment of a few specific 
technologies to a focus on understanding capability gaps in all sectors 
of homeland security and law enforcement while increasing test and 
evaluation programs to identify potential solutions.

6. SELECTED INTERAGENCY PROGRAMS

Restructuring NOAA's Polar Satellite Program (NPOESS)

    As part of a tri-agency effort with NASA and the Department of 
Defense (DOD), NOAA has invested for several years in the development 
of the National Polar-orbiting Operational Satellite System (NPOESS), 
which is the next generation of polar-orbiting weather satellites that 
serve both civilian and military weather forecasting and climatology 
needs. However, NPOESS has suffered a string of cost increases (from 
$6.9 billion at the Program's outset to the Government Accountability 
Office's (GAO) current estimate of $15 billion) and schedule delays 
(some five years for the first satellite launch) that now threaten the 
continuity of reliable high-quality weather and climate data.
    Reviews of NPOESS have blamed the cost and schedule overruns on the 
program's organizational structure, which places direction and 
decision-making authority with an Executive Committee consisting of the 
three agencies, rather than with a single agency. In the FY 2011 
budget, the Administration is proposing a significant reorganization of 
NPOESS. Instead of being combined in a single program, NOAA and NASA 
will separate from DOD. NOAA and NASA will be responsible for the 
satellites flying in ``afternoon'' orbits (i.e. passing over sunlit 
regions of the Earth at local afternoon) while DOD will take control of 
the spacecraft flying early morning orbits. The two groups will procure 
their satellites separately; for the civilian side, NASA will perform 
the acquisition management in much the same way it handles such tasks 
for NOAA's geostationary weather satellites. NOAA will now refer to its 
portion of NPOESS as the Joint Polar Satellite System (JPSS). The 
program will continue to rely on European satellites for coverage in a 
third orbit.

Global Climate Change Research Program (USGCRP)

    The FY 2011 budget request proposes a $439 million increase (or 21 
percent) over FY 2010 for a total of $2.56 billion in funding for 
integrated climate and global change research conducted under the U.S. 
Global Change Research Program (USGCRP) umbrella, bringing federal 
climate research funding to the highest level ever. Started in 1989, 
the USGCRP is an interagency effort comprised of 13 departments and 
agencies. Activities of the USGCRP are grouped under the following 
areas: improving knowledge of Earth's past and present climate 
variability and change; improving understanding of natural and human 
forces of climate change; improving capability to model and predict 
future conditions and impacts; assessing the Nation's vulnerability to 
current and anticipated impacts of climate change; and improving the 
Nation's ability to respond to climate change by providing climate 
information and decision support tools that are useful to policymakers 
and the general public.

National Nanotechnology Initiative (NNI)

    The Science and Technology Committee was instrumental in the 
development and enactment of the 21st Century Nanotechnology Research 
and Development Act of 2003 (P.L. 108-153), which authorizes the 
National Nanotechnology Initiative (NNI). The NNI focuses on R&D that 
creates materials, devices, and systems that exploit the fundamentally 
distinct properties of matter as it is manipulated at the nanoscale. 
There are currently 26 federal agencies that participate in the NNI, 
with 13 of those agencies reporting a nanotechnology R&D budget. A bill 
to reauthorize NNI (H.R. 554) is pending in the Senate.
    The FY 2011 budget request proposes $1.8 billion for NNI, a $5 
million decrease from FY 2010 enacted. The most significant decrease in 
funding (20 percent, or $87 million) is at DOD, where the 
Administration did not request funding for Congressionally directed 
projects funded in FY 2010. But NSF's contribution to NNI also 
decreases some, while DOE's and Health and Human Services' 
contributions increase significantly. Overall, environmental, health 
and safety (EHS) research would increase by 22 percent to $119 million 
and nanomanufacturing R&D would be a new focus at several agencies, 
with total funding of $87 million.

Networking and Information Technology R&D Program (NITRD)

    Similarly, the S&T Committee was instrumental in the development of 
the multi-agency Networking and Information Technology Research and 
Development (NITRD) program through the High Performance Computing Act 
of 1991 (P.L. 102-194). The mission of the NITRD program is to 
accelerate progress in the advancement of computing and networking 
technologies and to support leading edge computational research in a 
range of science and engineering fields. Currently, 13 Federal agencies 
contribute funding to the NITRD program and additional agencies, such 
as DHS, participate in planning activities.
    The Administration proposes $43 billion for NITRD in the FY 2011 
budget, a decrease of $9 million from FY 2010 enacted. The key NITRD 
agencies, including NSF, DOE and HHS (because of health IT) increase 
their contributions to NITRD in FY 2011. DOD's funding is decreased by 
$171 million, again accounted for by Congressionally directed projects.
    Chairman Gordon. This hearing will come to order.
    Good morning and welcome to the Science and Technology 
Committee hearing on Research and Development in the 
President's fiscal year 2011 budget request. Recognizing that 
we are in a time of constrained budgets and have some very 
tough choices that have to be made, I was very happy to see 
strong increases for research and development in the 
President's budget.
    Ironically, it is during these difficult economic times 
that we have both an imperative and an opportunity to invest in 
our future economic growth through science, technology and STEM 
education. It is an imperative because we must lay the 
foundation for future discoveries and transformative 
technologies such as the internet. That foundation involves 
investing in cutting-edge research, as well as in the 
mechanisms that facilitate technology transfer and innovation 
that translates into 21st century jobs and improved standard of 
living. It also requires investing in the education and 
training of a workforce prepared for those high-skills, high-
paying jobs generated through innovation. So I am happy to see 
such a focus on STEM education in the President's budget.
    But business as usual will not be enough to maintain our 
lead, and to keep our own and the world's best talent here in 
the United States, especially as other countries rapidly 
increase their own investments in science and technology. In 
2007, we bucked business as usual and created ARPA-E as a whole 
new model of funding high-risk, but potentially transformative 
clean energy research. While I was hoping for more, I was 
pleased to see the strong support of ARPA-E in the President's 
budget.
    And I want to thank Dr. Holdren for appearing before the 
Committee today to discuss how he can work, where we can work 
together to achieve these goals, and I am sure we will not be 
surprised, or he will not be surprised, by my colleagues and I 
having some questions and concerns about particular agencies 
and programs within the budget. So I look forward to a 
productive discussion about these issues.
    And now I recognize Mr. Hall for an opening statement.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    Good morning and welcome to this Science and Technology Committee 
hearing on Research and Development in the President's fiscal year 2011 
budget request. Recognizing that we are in a time of constrained 
budgets and some very tough choices had to be made, I was very happy to 
see strong increases for research and development in the President's 
budget.
    Ironically, it is during these difficult economic times that we 
have both an imperative and an opportunity to invest in our future 
economic growth through science, technology and STEM education. It is 
an imperative because we must lay the foundation for future discoveries 
and transformative technologies such as the internet. That foundation 
involves investing in cutting edge research, as well as in the 
mechanisms that facilitate technology transfer and innovation that 
translates into 21st century jobs and improved standard of living. It 
also requires investing in the education and training of a workforce 
prepared for those high-skills, high-paying jobs generated through 
innovation. I am happy to see such a focus on STEM education in the 
President's budget.
    But business as usual will not be enough to maintain our lead, and 
to keep our own and the world's best talent here in the U.S., 
especially as other countries rapidly increase their own investments in 
science and technology. In 2007, we bucked business as usual and 
created ARPA-E as a whole new model of funding high-risk, but 
potentially transformative clean energy research. While I was hoping 
for more, I was pleased to see strong support for ARPA-E in the 
President's budget. These economic downturns present us with an 
opportunity to take a step back and think about how to innovate 
throughout our science and technology enterprise.
    I want to thank Dr. Holdren for appearing before the Committee 
today to discuss how we can work together to achieve these goals. And 
I'm sure you will not be surprised that my colleagues and I also have 
some questions and concerns about particular agencies and programs 
within the budget. I look forward to a productive discussion about 
these issues.

    Mr. Hall. Mr. Chairman, thank you. I had some words I 
wanted to say about Dr. Ehlers, but he stepped out and he is my 
age. I guess he has gone to the bathroom. I will kind of wait 
and cut in later. I sat up all night writing it.
    I thank you, Chairman Gordon, good chairman, for calling 
this hearing, and Dr. Holdren, I think I want to welcome you 
here today and thank you for your service as Director of the 
Office of Science and Technology Policy. I am going to try to 
be firm but polite. Today's hearing obviously covers a great 
deal of ground, so I will still try to be brief. At the same 
time, there are some specific points that I would like to 
address before we hear from you.
    First of all, none of us here dispute the magnitude and 
importance that a robust federal research and development 
enterprise has on our economy, our National security and our 
ability to be globally competitive. As you know, doubling the 
funding in key areas of basic research is the most important 
innovation in long-term economic competitiveness, and that has 
long been a priority of this committee. The President continues 
his commitment in the fiscal year 2011 budget but we also need 
to recognize that we are in a very difficult economy, a much 
more difficult economy than we were in when we originally set 
down this path with the America COMPETES Act. While being 
supportive of strong funding for basic research, I am concerned 
with where this budget is taking us and the way the 
Administration is choosing to direct the American taxpayers' 
research dollars.
    Let us start with NASA. I have never been more concerned 
for the future of America's human spaceflight program. The 
Administration's own Augustine panel recommended that a human 
spaceflight program worthy of a great Nation would require a 
clear direction and adequate funding. Unfortunately, this 
Administration proposes to eliminate billions of dollars from 
human spaceflight at a critical and precarious time by shifting 
funding to other areas of NASA. On the eve of the completion of 
the International Space Station and the retirement of the space 
shuttle, I cannot understand how the Administration can propose 
such radical policy changes without a clear defined plan 
forward with measurable goals. This is a dangerous path that 
not only threatens our leadership and our highly skilled 
workforce but also threatens the very existence of America's 
human spaceflight efforts and the utilization of the 
International Space Station. I hope someone has a better 
substitute, but I doubt it.
    Next, the Administration's nonchalant response to the 
leaked e-mails from the climate research unit at the University 
of East Anglia. It contradicts your commitment to scientific 
integrity. It was my hope that your concern would rise to the 
level of mine. The continued assertion that the e-mails do 
nothing to undermine the veracity of the science presented by 
the IPCC gives us further pause of the ability of the objective 
in these matters. A long time ago, scientific consensus found 
the world to be flat but challenging that consensus provided us 
with the truth.
    The Administration has also changed course in several other 
key areas, the direction of which places significant sums of 
taxpayer money in jeopardy. Your office announced the 
dissolution of the National Polar-orbiting Operational 
Environmental Satellite System, or NPOESS program. The tri-
agency project structure including NASA, NOAA and DOD spent the 
last 16 years developing the next generation of weather 
satellites at a cost of more than $14 billion dollars, although 
the way that this program was structured almost doomed it to 
fail. We are about a year away from finally launching the first 
satellite. Now the Office of Science and Technology Policy 
decides to change program parameters by splitting the program 
with over $14 billion dollars of taxpayer funding already 
invested. The shift in program structure comes with no analysis 
or explanation as to whether it will be cost-effective, lower 
the inherent risk and deliver this project on time.
    Similarly, the Administration announced a desire to 
formally withdraw with prejudice a license application for 
Yucca Mountain, effectively eliminating Yucca Mountain as an 
option for the permanent storage of nuclear waste. After 25 
years of scientific and engineering analysis and at a cost of 
$10 billion dollars, the Administration provided no details as 
to the rationale, whether scientific, economic or other, for 
killing this option. With no alternative proposal provided, the 
Administration asked that we wait an additional two years for 
the results of the blue ribbon panel just announced.
    All of these examples illustrate a troubling pattern in the 
Administration's science policy decisions. These decisions 
should not only be based on sound science and sound economics 
but should also consider the long-term ramifications. I fear 
that the current decisions being made do not reflect these 
considerations. As the President's principal scientific 
advisor, your task is to ensure scientific integrity and 
prudent investment so as to provide sound science that is good 
for the entire Nation, not just this Administration.
    Dr. Holdren, we remain committed to assisting you as we 
move forward but hope you will take the message back to the 
President that we have significant concerns with the present 
course, and I thank you again for being with us and I do look 
forward to your testimony.
    If I might have another just a minute or so say a word 
about Dr. Ehlers. He is back. Good. Mr. Chairman, before we 
proceed together anymore today, I know you share in my feelings 
and I will take a moment to recognize someone that I believe 
that we have found to be a tremendous asset not only to this 
committee but also to his constituents, the scientific 
community and the entire Nation. Vern Ehlers, or the Professor, 
as I call him, announced last week that he is ready to leave 
Washington and return to his beloved Michigan at the end of the 
Congress. As I am sure you will agree, it is unlikely that 
anyone will be able to fill his shoes. I just wanted to take 
this opportunity to tell him what a valuable contribution he 
has made to this committee. We will hear today about the 
President's plan for STEM education. No one in the history of 
this body has worked more tirelessly or effectively on this 
issue, and we all owe him a debt of gratitude. He embodies 
qualities of a true statesman, a man of integrity and tenacious 
in his beliefs yet willing to compromise when in the best 
interests of the country. He is a gentle fighter.
    Fortunately, he isn't going anywhere for a while so I 
suggest all of us on both sides of the aisle and you too, Dr. 
Holdren, glean every ounce of intelligence from him while we 
can. There is much to be learned from this gentleman, and I am 
not just referring to science. I yield back my time.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Thank you Chairman Gordon for calling this hearing to review the 
Administration's FY 2011 Research and Development (R&D) Budget and 
related science and technology policy priorities.
    Dr. Holdren, I would like to welcome you here today and thank you 
for your service as Director of the Office of Science and Technology 
Policy. Today's hearing obviously covers a great deal of ground, so I 
will try to be brief. At the same time, there are some specific points 
that I would like to address before we hear from you.
    First of all, none of us here dispute the magnitude of importance 
that a robust federal research and development enterprise has on our 
economy, our national security, and our ability to be globally 
competitive. As you know, doubling the funding in key areas of basic 
research most important to innovation and long-term economic 
competitiveness has long been a priority of this Committee. The 
President continues this commitment in the FY 2011 budget, but we also 
need to recognize that we are in a very different economy than we were 
when we originally set down this path with the America COMPETES Act. 
While being supportive of strong funding for basic research, I am 
concerned with where this budget is taking us and the ways the 
Administration is choosing to direct the American taxpayer's research 
dollars.
    Let's start with NASA. I have never been more concerned for the 
future of America's human space flight program. The Administration's 
own Augustine panel recommended that a human space flight program 
worthy of a great nation would require a clear direction and adequate 
funding. Unfortunately, this Administration proposes to eliminate 
billions of dollars from human space flight at a critical and 
precarious time by shifting funding to other areas of NASA. On the eve 
of the completion of the International Space Station and the retirement 
of the Space Shuttle, I cannot understand how the Administration can 
propose such radical policy changes without a clearly defined plan 
forward with measurable goals. This is a dangerous path that not only 
threatens our leadership and our highly skilled workforce, but also 
threatens the very existence of America's human space flight efforts, 
and the utilization of the International Space Station.
    Next, the Administration's nonchalant response to the leaked e-
mails from the Climate Research Unit at the University of East Anglia 
contradicts your commitment to scientific integrity. It was my hope 
that your concern would rise to the level of mine. The continued 
assertion that the e-mails do nothing to undermine the veracity of the 
science presented by the IPCC give us further pause as to the ability 
to be objective in these matters. A long time ago scientific consensus 
found the world to be flat, but challenging that consensus provided us 
with the truth.
    The Administration also has changed course in several other key 
areas, the direction of which places significant sums of taxpayer money 
in jeopardy. Your office announced the dissolution of the National 
Polar-orbiting Operational Environmental Satellite System or NPOESS (N 
pose) program. This tri-agency project structure, including NASA, NOAA, 
and DOD, spent the last 16 years developing the next generation of 
weather satellites at a cost of more than 14 billion dollars. Although 
the way that the program was structured almost doomed it to fail, we 
are about a year away from finally launching the first satellite. Now 
OSTP decides to change the program parameters by splitting the program. 
With over 14 billion dollars of taxpayer funding already invested, this 
shift in program structure comes with no analysis or explanation as to 
whether it will be cost effective, lower the inherent risks, and 
deliver the project on time.
    Similarly, the Administration announced the desire to formally 
withdraw, with prejudice, the license application for Yucca Mountain, 
effectively eliminating Yucca Mountain as an option for the permanent 
storage of nuclear waste. After 25 years of scientific and engineering 
analysis and at a cost of 10 billion dollars, the Administration 
provided no details as to the rationale, whether scientific, economic 
or other, for killing this option. With no alternative proposal 
provided, the Administration asks that we wait an additional two years 
for the results of a Blue-Ribbon panel just announced.
    All of these examples illustrate a troubling pattern in the 
Administration's science policy decisions. These decisions should not 
only be based on sound science and sound economics, but should also 
consider the long term ramifications. I fear that the current decisions 
being made do not reflect these considerations. As the President's 
principal scientific advisor, your task is to ensure scientific 
integrity and prudent investment so as to provide sound science that is 
good for the entire Nation, not just this Administration.
    Dr. Holdren, we remain committed to assisting you as we move 
forward, but hope you will take the message back to the President that 
we have significant concerns with the present course.
    Thank you again, for being with us, and I look forward to your 
testimony.

    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good Morning. Thank you, Mr. Chairman, for holding today's hearing 
on the Administration's Fiscal Year (FY) 2011 budget request for 
research and development (R&D) programs across the federal government.
    The President's budget calls for $147.7 billion for research and 
development, which will fund an array of R&D projects in nearly every 
agency in the federal government. This investment represents a $343 
million increase in R&D from FY 2010 and keeps three science agencies--
the National Science Foundation, the National Institute of Standards 
and Technology, and the Department of Energy Office of Science--on a 
10-year track for doubling funding.
    I am pleased to see that the President's budget continues to invest 
in the America COMPETES Act programs in Science, Technology, 
Engineering, and Mathematics (STEM) Education. In particular, I was 
pleased to see the $1 billion investment in K-12 STEM education, a 40 
percent increase from FY 2010. I strongly support this funding to 
attract students to STEM at a young age and improve STEM achievement. 
The Committee will consider the reauthorization of COMPETES this year. 
I would like to hear from Dr. Holdren on the impact these investments 
in STEM education have had on our students, especially in increasing 
the number of students pursuing STEM through higher education at 
community colleges, universities, and graduate programs.
    I support the increase in funding for two key workforce development 
and worker training programs: RE-ENERGYSE the Manufacturing Extension 
Partnership (MEP). First, RE-ENERGYSE provides training and education 
to prepare our students at community colleges and universities for 
careers in energy. This important program would receive $55 million 
through budget, combined with an additional $19 million from the 
National Science Foundation. Second, MEP is perhaps the single best way 
to prepare our manufacturers for changes in technology. The budget 
increases funding for MEP by four percent, requesting $129.7 million, 
and I am pleased to see the administration's support for this vital 
program. The Committee must continue to support this program and, 
through the reauthorization of COMPETES this year, to expand its 
efforts to promote innovation by small and medium-sized American 
manufacturers.
    I was also pleased to see the Administration's $545 million 
investment in carbon capture and storage (CCS) R&D, of which I have 
been a strong supporter. This investment is complimented by $2.4 
billion in funding for Renewable Energy and Energy Efficiency R&D, 
including biofuels and biomass. Together, these investments will allow 
us to increase our energy independence while continuing to use reliable 
domestic energy sources, such as clean coal.
    Finally, the National Aeronautics and Space Administration (NASA) 
budget represents a general departure from the NASA Authorization Act 
of 2008 passed by Congress and signed into law. This departure is seen 
in the termination of the Constellation program and the $6 billion 
investment over five years in the development of commercial human 
spaceflight vehicles. I would like to hear from Dr. Holdren how the 
Administration plans to work with NASA and this Committee to enact 
these changes.
    I welcome Dr. Holdren, and I look forward to his testimony. Thank 
you again, Mr. Chairman.

    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Welcome, Dr. Holdren. It is a delight for us to see you at today's 
committee hearing on the federal research and development budget.
    Now is the time to act boldly to produce a more diverse, well-
educated workforce in science, technology, engineering, and mathematics 
(STEM). Federal research agencies can have a major impact on our 
nation's future competitiveness in these areas. Investments in research 
and education programs with demonstrated success represent wise 
stewardship of our nation's resources.
    Specifically, we must invest in segments of our population that are 
not pursuing these areas in order to foster a climate of diversity, 
creativity and competitiveness. We must also support policies that 
target gaps in the STEM workforce pipeline--such as the early-career 
faculty period--where we are losing precious human capital.
    Strong, sustained investment in federal R&D is among my highest 
priorities. I believe that a competitive, educated workforce is well-
positioned to take advantage of research grant opportunities made 
available by the federal government.
    The President suggests $7.4 billion for the National Science 
Foundation, an 8 percent increase over the 2010 enacted level. I 
recommend more robust funding for NSF Rather than focusing on 
infrastructure support, I recommend that the Foundation be given robust 
increases for extramural research and education activities. NSF 
``Broadening Participation'' programs are particularly effective in 
encouraging women and under-represented minorities to pursue STEM 
careers.
    Broadening Participation programs at the National Science 
Foundation are slated to receive modest increases only. I would prefer 
a much greater emphasis on these types of programs than is currently 
given.
    Several of my colleagues on this committee are members of the 
Diversity and Innovation Caucus.
    They have advocated for minority-serving institutions by offering 
amendments during committee markups.
    There is stronger support to broaden participation in science, 
technology, engineering, and math (also called STEM) than ever before.
    I support the President's initial FY 2011 budget request contained 
language specifying funds to expand the Department of Energy Office of 
Science to $5.1 billion. The America COMPETES Act of 2007 did authorize 
funds for several vital education and research programs. These programs 
should receive funding.
    In addition, net metering and smart grid technology investments, as 
well as ARPA-E, will empower individuals to use energy more wisely. We 
must boldly move energy efficiency to a personal level with stronger 
incentives. Some states are excelling at this effort, and greater 
federal engagement is needed.
    I also support funding increases for the Manufacturing Extension 
Partnership and the Technology Innovation Program within the National 
Institute of Standards and Technology.
    Funding for OSTP has been neglected so severely over the past 
decade that the administration's team of STEM advisors has dwindled by 
two thirds. OSTP must be restored to the strong, science-based, 
consultative body that is needed to coordinate cross-agency science 
programmatic activities and to liaison with the legislative branch.
    Dr. Holdren, It is my hope that your office will take a more formal 
approach to analyzing and watching over federally-funded Broadening 
Participation programs across the agencies.
    In 2006, two percent of employed doctoral engineers were black. 
That same year, 2.7 percent were Hispanic. Eighty-one percent were 
White or Asian.
    I would like to partner with you to see this number change.
    A National Academies report on minorities and science, technology, 
engineering, and math is long overdue.
    This committee is anxious to see the recommendations for it.
    Currently, there exists no coordinating activity for all of these 
programs across the agencies.
    Such an activity would enable agency program directors to manage 
programs better and share best practices with one another on 
implementing these programs.
    Thank you, and I yield back my time.

    Chairman Gordon. Thank you, Mr. Hall. We could spend the 
rest of the day concurring with you. And Dr. Ehlers, let me say 
both in the majority and in the minority and on all occasions 
you have been a leader for this committee, a leader and a 
champion for science and technology, and we thank you, and you 
will be missed from this committee and from this Congress but I 
am sure your voice won't be silent, so we want you to stay 
involved in public policy.
    Now at this time I want to introduce our witness. Dr. John 
Holdren is Assistant to the President for the Science and 
Technology, Director of the White House Office of Science and 
Technology Policy, and Co-chair of the President's Council of 
Advisors on Science and Technology, or PCAST. Prior to joining 
the Obama Administration, Dr. Holdren was the Teresa and John 
Heinz Professor of Environment Policy and Director of the 
Program on Science and Technology and Public Policy at the 
Kennedy School of Government. As our witness knows, his written 
testimony will be a part of the record. Each Member then will 
have the opportunity to ask questions for five minutes. I am 
hoping--as you know, we are all a little bit behind because of 
the snow. Dr. Holdren was supposed to have testified, I guess 
it was last week. He made a special effort because we thought 
it was important to get him up here early to be here today, but 
he is going to have to leave at 11:30. That is the reason that 
we started at 9:30 so that we want everybody to have an 
opportunity to discuss with him. So I am asking people to try 
to be crisp with their questions because I want everybody to 
have a chance to get those questions in today.
    Dr. Holdren, I will tell you that as we got ready to start 
the hearing, with Mr. Broun with a big smile on his face, Mr. 
Hall looked at me and said, ``Does he bruise easily?'' I told 
him no, that you had a tough skin. So we are glad to hear from 
you.

 STATEMENT OF DR. JOHN P. HOLDREN, ASSISTANT TO THE PRESIDENT 
FOR SCIENCE AND TECHNOLOGY; DIRECTOR OF THE WHITE HOUSE OFFICE 
 OF SCIENCE AND TECHNOLOGY POLICY; CO-CHAIR OF THE PRESIDENT'S 
         COUNCIL OF ADVISORS ON SCIENCE AND TECHNOLOGY

    Dr. Holdren. Thank you for that vote of confidence, Mr. 
Chairman, about bruising.
    Chairman Gordon, Ranking Member Hall, members of the 
Committee, it is a privilege to be here today to testify about 
the Administration's research and development and science, 
technology, engineering and math education budget proposals for 
fiscal year 2011.
    I do want to say that I myself have known and worked with 
Dr. Ehlers on a variety of issues for many years and I would 
second everything that Ranking Member Hall said about his 
wonderful qualities. Vern, you will certainly be missed in the 
Congress. But I, for one, will try to continue to tap your 
wisdom.
    Let me start by saying that the Obama Administration is 
working hard to keep the Nation on a path out of recession 
through recovery and into a new era of revitalized economic 
growth. That means obviously sparking job creation to get 
millions of Americans back to work, and it means building a new 
foundation for long-term prosperity that will reach every 
American family. A crucial element of that effort is the 
targeted investments that we are making in science, technology 
and innovation that will lead to new products and services, new 
businesses and industries, increased American competitiveness 
and high-quality sustainable jobs.
    That strategy includes investments in fundamental and 
applied research and development that will lead to better 
technologies and the jobs that go with them for advanced 
manufacturing, for clean energy, for health care, for 
environmental protection and remediation, and for national and 
homeland security. It includes increased use of public-private 
partnerships to speed up innovation and get the results more 
rapidly into the marketplace.
    It calls for exploration and discovery from the depths of 
the oceans to the frontiers of space, expanding our knowledge 
of our world and our universe while igniting the curiosity and 
ambitions of our young people. And it includes a focus on STEM 
education--science, technology, engineering and math 
education--that will support and sustain rather than stifling 
that curiosity so that we can cultivate the next generation of 
innovators along with a technology-savvy workforce that 
competitiveness in the 21st century requires.
    Obviously, we need the continued support of the Congress 
and this committee to get it done, but if there is one message 
that I want to convey in my comments today, it is that the 
investments outlined in the President's R&D budget are at the 
very core of this country's future strength. So I do look 
forward to working with all of you to make sure, at this very 
important time in our history when competition abroad is 
growing and the stakes are increasing, that we keep America on 
a path that keeps this Nation great for our children and our 
grandchildren, a path that is built on scientific evidence, on 
technical progress and prowess, and on a nation of people who 
are inventors, innovators and makers, not just consumers.
    Let me turn to a brief birds-eye view of the fiscal year 
2011 R&D budget and then elaborate on just a few highlights. 
The President's 2011 budget proposes a record $61.6 billion 
investment in civilian research and development, not including 
facilities and equipment. That is an increase of $3.7 billion, 
or 6.4 percent, over the 2010 funding level. Those increases 
are counterbalanced by some reductions in defense development 
funding such that the combined defense and non-defense R&D 
budget would be $147.7 billion. That is just two-tenths of a 
percent above the enacted 2010 level. Taking inflation into 
account, it would be a decline of about nine-tenths of a 
percent in real terms. I think this is a smart R&D budget, one 
that is fiscally responsible overall with some important 
targeted increases where investments today can do the most good 
tomorrow.
    Among the highlights, let me first note that this budget 
does reflect the President's commitment to double the budgets 
of the National Science Foundation, the DOE's Office of Science 
and the National Institute of Standards and Technology 
Laboratories. The President's plan for science and innovation 
and the America COMPETES Act identified those three agencies as 
key to the fundamental research that underpins our Nation's 
prosperity and which the private sector won't do enough of 
because the risks seem too high or the returns too far in the 
future.
    Last year, this Congress and this Administration worked 
together to put those agencies back on a doubling trajectory 
that had faltered in the previous Administration, and the 2011 
budget maintains that trajectory with a 6.6 percent increase 
for the combined budgets of those agencies.
    I also want to highlight the Department of Energy R&D 
portfolio, which totals $11.2 billion, an increase of 3.8 
percent in real terms. It includes $300 million for the 
Advanced Research Projects Agency for Energy, ARPA-E, that was 
authorized in the America COMPETES Act to fund high-risk, high-
reward research that can yield revolutionary changes in how we 
produce, distribute and use energy. ARPA-E announced its first 
set of grants last October and in 2010 will make additional 
awards with Recovery Act funds. The 2011 budget will allow that 
groundbreaking program to make additional awards next year.
    Separately, investments in DOE's Clean Energy R&D Program 
will help reduce dependence on foreign oil and accelerate 
America's transition to a low-carbon economy, with funding 
increases for solar energy, geothermal technology, energy 
conservation, building technology and nuclear energy.
    Let me highlight as well some of our goals within the 
National Oceanic and Atmospheric Administration, NOAA, which as 
you know, plays a vital role supporting research on the earth's 
oceans, atmosphere and marine habitats. The NOAA budget of $5.6 
billion is an increase of $806 million over the 2010 enacted 
level. That will allow NOAA to improve weather and climate 
services that protect life and property, invest more heavily in 
restoring our oceans and coasts, and ensure continuity of 
crucial satellite observations of weather and climate.
    I want to emphasize recent progress in this latter area. 
The large increase in the NOAA budget reflects in part a new 
architecture for the National Polar-orbiting Operational 
Environmental Satellite System, NPOESS, which as Ranking Member 
Hall already mentioned, has been a tri-agency--that is NOAA, 
DOD and NASA--program that has had a troubled history. Since 
last August, OSTP has led an Executive Office of the President 
task force that, in close cooperation with the three partner 
agencies, has been investigating various options for how to 
place the NPOESS program on a pathway to success. Earlier this 
month, the three agencies announced a plan to restructure the 
program, not to cancel it, not to do away with but to 
restructure it. That plan is reflected in the 2011 budget. 
There will be a division of settlement acquisition, but the 
three agencies will continue to partner in areas that have been 
successfully shared up until now, including the program's 
ground and data systems. And I want to assure the Committee 
that OSTP will remain actively engaged in overseeing the 
transition to a new structure for this program, which we regard 
as crucial, as I know you do.
    There are many other items in the R&D budget that are worth 
highlighting, including support for activities in the Next 
Generation Air Transportation System, NextGen, the added $1 
billion dollars for the National Institutes of Health to speed 
the discovery of new treatments and cures for cancer and other 
scourges, the added support for the Defense Advanced Research 
Projects Agency, DARPA, for research in high-priority areas 
such as night vision, cybersecurity, enhanced GPS and force 
protection. The more than 25 percent increase in funding for 
environmental, health and safety studies under the National 
Nanotechnology Initiative, and the significant increase in 
support for the multi-agency U.S. Global Change Research 
Program mandated by Congress to improve understanding of 
climate science, expand global observing systems and develop 
science-based resources to support policymaking and resource 
management.
    But I want to focus on two other areas before my time is 
up. The first of these is NASA. Our U.S. space program 
represents not just a grand and inspiring adventure of 
exploration and discovery but also an indispensable platform 
for observing what is happening on the earth below, a crucial 
element of our communications infrastructure and geopositioning 
capability, and a source of new products, services, businesses 
and jobs whose potential is barely beginning to be tapped.
    The fiscal year 2011 NASA budget proposes a science and 
technology-centered restructuring of this country's space 
exploration program that will invest in American ingenuity to 
enable us to do things in space that are more useful, more 
exciting and more affordable than returning astronauts to the 
moon's surface 50 years after we did it the first time, using 
the last century's technology.
    The new approach, which adds $6 billion over the next five 
years to NASA's budget, includes a vigorous technology 
development and test program that will begin to reverse decades 
of underinvestment at NASA in new ideas. By extending the life 
of the International Space Station, likely to 2020 or beyond, 
it increases the number of U.S. astronauts who will be working 
in space over the next decade. By supporting the development of 
private sector capabilities to lift astronauts into low earth 
orbit, it will shorten the duration of our reliance solely on 
Russian launchers for that purpose. And by investing in new 
game-changing technologies, it gives promise of getting our 
astronauts to deep space destinations sooner, faster, safer and 
cheaper than what could realistically have been achieved under 
the old approach.
    Among the priorities included in this year's and outyear 
budgets for NASA are technologies to reduce the cost and expand 
the capabilities of future exploration activities including in-
orbit fuel storage and refueling, R&D on new launch systems and 
advanced deep space propulsion, robotic precursor missions to 
scout human exploration targets, reflying the Orbiting Carbon 
Observatory, accelerating the development of other satellites, 
and continuing to increase our understanding of the cosmos 
through such projects as the follow-on on to the Hubble space 
telescope.
    Finally, just a few words about STEM education. The 
President has been emphatic about his commitment, which I 
share, to increase the participation and the performance of 
American students in science, technology, engineering and 
mathematics, aiming to improve our performance in competition 
with other nations from the middle of the pack to the top of 
the pack over the next decade. The 2011 budget would invest 
$3.7 billion in STEM education programs across the Federal 
Government, including an historic $1 billion investment in 
improving math and science education among K-12 students. That 
is an increase of over 40 percent in that category. The impact 
of these investments will be magnified by ``Educate to 
Innovate'', a campaign launched by the President last year to 
motivate and inspire young people to excel in STEM education. 
That campaign has already mobilized over $500 million in 
financial and in-kind support from companies, universities, 
foundations and nonprofits. In addition to those investments, 
the 2011 budget would provide an additional $1.35 billion in 
funding for Race to the Top, which provides a competitive 
advantage to states that commit to a comprehensive strategy to 
improve STEM education.
    The investments in R&D and STEM education proposed in the 
President's fiscal year 2011 budget reflect his clear 
understanding of the critical importance of science, technology 
and innovation in addressing the most compelling challenges our 
Nation faces, while at the same time respecting the need for 
overall budgetary restraint under difficult economic 
conditions. It is a budget intended to keep this country on a 
path to revitalized economic growth, real energy security, 
intelligent environmental stewardship, better health outcomes 
for more Americans at lower cost, strengthened national and 
homeland security, and continuing American leadership in 
science and in space.
    I look forward to working with this committee to make this 
vision, the vision of the President's 2011 budget proposal, 
into a reality, and of course, I will be pleased to try to 
answer any questions that the members have. Thank you very 
much.
    [The prepared statement of Dr. Holdren follows:]
                 Prepared Statement of John P. Holdren
    Chairman Gordon, Ranking Member Hall, and Members of the Committee, 
It is my distinct privilege to be here with you today to discuss the 
R&D and STEM-education components of the President's FY 2011 Budget.

Administration Initiatives in Science, Technology, and Innovation

    The Obama Administration is working hard to keep the Nation on the 
path out of recession through recovery and into a new era of 
revitalized growth. This means sparking job creation to get millions of 
Americans back to work, and it means building a new foundation for 
long-term prosperity that will reach every American family. A crucial 
element of this effort is the targeted investments we're making in 
science, technology, and innovation (STI) that will lead to new 
products and services, new businesses and industries, and high-quality, 
sustainable jobs.
    Our STI strategy includes investments in applied research and 
development that will lead to better technologies--and the jobs that 
will go with them--for advanced manufacturing, for clean energy, for 
health care, for environmental protection and remediation, and for 
national and homeland security. It includes increased use of public-
private partnerships to speed up innovation and get the results more 
rapidly into the marketplace. And it includes investments in the 
foundations of national strength in STI:

        <bullet>  fundamental research and the facilities and equipment 
        needed to do it;

        <bullet>  domains of exploration and discovery from the depths 
        of the oceans to the frontiers of space, expanding our 
        knowledge of our world and our universe while igniting the 
        curiosity and ambitions of our young people; and

        <bullet>  science, technology, engineering, and math (STEM) 
        education that will build on rather than stifle that curiosity 
        and will enable those ambitions, giving us a bigger and better 
        prepared next generation of innovators, along with the tech-
        savvy workforce that competitiveness in the 21st century 
        requires.

    Because President Obama understands the crucial connections linking 
STI and STEM education to our ability to meet the great challenges 
before us, his 2011 Budget provides strong and strategic investments in 
these domains despite the overall budget austerity that the country's 
fiscal circumstances require. At a difficult time in the nation's 
history, the President's 2011 Budget proposes to invest in science, 
technology, and innovation today to meet the challenges of tomorrow. 
Obviously, we need the continued support of the Congress to get it 
done. In the remainder of this testimony, I elaborate on the reasons 
the President and I are most hopeful you'll provide that support.

The Federal R&D Budget

    The President's 2011 Budget proposes a record $61.6 billion 
investment in civilian research and development, an increase of $3.7 
billion or 6.4 percent over the 2010 funding level, reflecting the 
Administration's firm belief that investment in innovation is the key 
to building the American economy of the future. This Budget builds on 
the 2009 and 2010 appropriations approved by Congress, and if passed as 
proposed would mark the third year in a row of real increases for 
Federal nondefense R&D and Federal research, following four years of 
real decline between 2004 and 2008.
    These important R&D investments aim to bolster the fundamental 
understanding of matter, energy, and biology that are at the root of 
all innovation and to foster significantly new and potentially 
transformative technologies. While reducing some development funding 
and scaling back on R&D facilities and equipment, all told, the total 
(defense and nondefense) R&D budget would be $147.7 billion, just $343 
million or 0.2 percent above the 2010 enacted level, or a 0.9 percent 
cut after adjusting for projected inflation.
    Science is also fundamental to ensuring that Americans are safe and 
secure. That is why the Defense Department budget also devotes $2 
billion to basic research, considerably higher than in. 2010, while 
reducing the Department's overall R&D budget by some $3.5 billion-a 
reduction in spending achieved in large part by cutting lower-priority 
weapons-development programs.

Budgets of Science Agencies

    The 2011 Budget also reflects the President's commitment to double 
the budgets of the National Science Foundation, a primary source of 
funding for basic academic research; the DOE's Office of Science, which 
leads fundamental research for energy and builds and operates 
accelerators, colliders, supercomputers, and facilities for making 
nano-materials; and the National Institute of Standards and Technology 
laboratories, which support a wide range of pursuits from accelerating 
standards development for health information technology and ``smart 
grid'' technologies to conducting measurement science research to 
enable net-zero energy buildings and advanced manufacturing processes.
    The President's Plan for Science and Innovation and the America 
COMPETES Act have identified these three agencies as key to our 
nation's future prosperity and to preserving America's place as the 
world leader in science and technology. Although the previous 
Administration supported an effort to double these agencies' budgets 
between 2006 and 2016, these efforts fell short in 2007 and 2008. But 
last year, this Congress and this Administration worked together to 
finally put these agencies on a doubling trajectory, and the FY 20I I 
budget maintains that trajectory with a 6.6 percent increase for their 
combined budgets, totaling $13.3 billion.
    I now turn to the budgets of individual agencies in a bit more 
detail.

National Science Foundation (NSF)

    The National Science Foundation (NSF) is the primary source of 
support for academic research for most non-biomedical disciplines, 
funding basic research across the entire spectrum of the sciences and 
engineering. It is well regarded for funding nearly all of its research 
through a competitive, peer-reviewed process. The 2011 Budget requests 
$7.4 billion for NSF, an increase of 6.9 percent in real terms above 
the 2010 funding level (8.0 percent in current dollars). This keeps NSF 
on track to double its budget as promised in the President's Plan for 
Science and Innovation. In addition, last year the Recovery Act 
provided $3.0 billion for NSF.
    Basic research funding is important not only because it leads to 
new knowledge and new applications but also because it trains the 
researchers and the technical workforce of the future. In recognition 
of this dual benefit to society and of NSF's special contribution, the 
2011 Budget continues the President's commitment to triple the number 
of new NSF Graduate Research Fellowships to 3,000 a year by 2013. The 
2011 Budget also requests $64 million for the Advanced Technological 
Education (ATE) program to promote partnerships between higher-
education institutions and employers to educate technicians for the 
high-technology fields that drive our nation's economy.
    NSF also proposes to increase research funding to promote 
discoveries that can guide societal actions leading to environmental 
and economic sustainability. The Science, Engineering, and Education 
for Sustainability portfolio will increase to $766 million in the 2011 
Budget for integrated activities involving climate, environment, and 
energy. NSF is also committed to enhancing U.S. economic 
competitiveness with Science-and Engineering Beyond Moore's law, a 
multidisciplinary research program designed to meet some of today's 
most daunting computational challenges.
    NSF will also be collaborating with the Department of Energy (DOE) 
on the RE-ENERGYSE (Regaining our ENERGY Science and Engineering Edge) 
program to attract and educate future American scientists in the clean 
energy field. NSF's proposed contribution is $19 million and DOE's is 
$55 million in 2011.

National Aeronautics and Space Administration (NASA)

    Our U.S. space program represents not just a grand and inspiring 
adventure of exploration and discovery looking outward at our universe, 
but also an indispensable platform for observing what is happening on 
the Earth below, a crucial element of our communications infrastructure 
and geopositioning capability; and a source of new products, services, 
businesses, and jobs whose potential is barely beginning to be tapped.
    The FY 2011 NASA budget launches a bold new space initiative that 
invests in American ingenuity to enable us to do things in space that 
are more useful, more affordable, and more exciting than returning 
astronauts to the Moon's surface 50 years after we did it the first 
time, using the last century's technology. The new approach--which adds 
$6 billion over the next five years for NASA--includes a vigorous 
technology development and test program that will begin to reverse 
decades of under-investment in new ideas. By extending the life of the 
International Space Station, it increases the number of U.S. astronauts 
who will be working in space over the next decade; by supporting the 
development of private-sector capabilities to lift astronauts into low 
Earth orbit it will shorten the duration of our reliance solely on 
Russian launchers for this purpose; and by investing in new, game-
changing technologies it gives promise of getting our astronauts to 
deep space destinations sooner, faster, safer, and cheaper than what 
could realistically have been achieved under the old approach.
    Let me provide some budget detail. The President's Budget supports 
the extension and enhanced utilization of the Space Station with a full 
complement of international crew and laboratories: it provides $2.8 
billion in 2011, $463 million more than in 2010, to extend operations 
of the Space Station past its previously planned retirement of 2016, 
likely to 2020 or beyond. It funds a technology-demonstration program 
at $7.8 billion over five years to support the development and 
demonstration of technologies to reduce the cost and expand the 
capabilities of future exploration activities, including in-orbit 
refueling and storage. There will be $3.1 billion over five years for 
heavy-lift and propulsion R&D on new launch systems, propellants, 
materials, and combustion processes. And the Budget anticipates an 
investment of $3.0 billion over five years to fund robotic precursor 
missions to scout exploration targets.
    The Budget proposes $5.0 billion in 2011 for the NASA's Science 
portfolio, an increase of more than $500 million compared to 2010. This 
increase allows for numerous exciting scientific opportunities in 
space: re-flying the Orbiting Carbon Observatory (OCO), which is 
crucial to our understanding of the Earth's carbon cycle and its effect 
on climate change; accelerating the development of other satellites to 
enhance observations of the climate and other Earth systems; and 
continuing to increase our understanding of the cosmos through such 
projects as the follow-on to the Hubble Space Telescope.

Department of Commerce National Institute of Standards and Technology 
        (NIST)

    The National Institute of Standards and Technology (NIST) 
laboratories advance technological innovation through advanced 
measurement science research and standards development. The 2011 Budget 
of $709 million for NIST's intramural laboratories, a 6.9 percent 
increase over the 2010 enacted level, will improve NIST's research 
capabilities by providing high-performance laboratory research and 
facilities for a diverse portfolio of research in areas such as 
advanced manufacturing, health information technology, cybersecurity, 
interoperable smart grid, and advanced solar energy technology. For 
NIST's extramural programs, the 2011 Budget requests $130 million for 
the Hollings Manufacturing Extension Partnership (MEP), a $5 million 
increase over the 2010 enacted level. The 2011 Budget also requests $80 
million for the Technology Innovation Program (TIP), a $10 million 
increase over 2010. All of these NIST programs are important components 
of A Framework for American Manufacturing, a comprehensive strategy for 
supporting American manufacturers announced in December.

Department of Commerce National Oceanic and Atmospheric Administration 
        (NOAA)

    The National Oceanic and Atmospheric Administration (NOAA) plays a 
vital role in research on the Earth's oceans, atmosphere, and marine 
habitats. The NOAA budget of $5.6 billion is an increase of $806 
million over the 2010 enacted level. This will allow NOAA to strengthen 
the scientific basis for environmental decision-making, improve weather 
and climate services that protect life and property, invest more 
heavily in restoring our oceans and coasts, and ensure satellite 
continuity.
    NOAA satellite systems, which are essential to our understanding of 
weather and climate, are a top priority in the 2011 Budget. The large 
increase in the NOAA budget reflects a new architecture for the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS). This tri-agency (NOAA, DOD Air Force, and NASA) program has 
had a long and troubled history. Since last August, OSTP has led an 
Executive Office of the President Task Force that, in close cooperation 
with the partner agencies, has been investigating various options for 
how to place the NPOESS program on a pathway to success. Last week, the 
three agencies announced a plan to restructure the program--a plan 
reflected in the President's 2011 Budget. NOAA and the Air Force will 
no longer jointly procure NPOESS; rather, NOAA and NASA will take 
primary responsibility for procuring satellites for the afternoon orbit 
and DOD will take primary responsibility for the morning orbit. The 
three agencies will continue to partner in areas that have been 
successfully shared in the past, such as the program's ground system. 
Although NOAA's 2011 Budget proposes a substantial increase to support 
NOAA's expanded NPOESS responsibilities under the restructuring, we 
intend to make full use of the NPOESS investments and work done to date 
by all the NPOESS parties. I can assure the committee that OSTP remains 
actively engaged in overseeing the transition to a new direction for 
this program and committed to ensuring continuity of satellite coverage 
needed for weather forecasting and storm tracking, as well as for 
climate data records.

Depaitinent of Energy (DOE)

    The Department of Energy (DOE) R&D portfolio totals $11.2 billion 
in the 2011 Budget. This represents an increase of 3.8 percent in real 
terms, and does not include non-R&D cleanup, weapons, and energy-
demonstration programs. The 2011 Budget includes support for four 
Energy Innovation Hubs to accelerate cross-disciplinary R&D for 
transforming advances in energy science into commercially deployable 
materials, devices, and systems: three appropriated by Congress last 
year to advance fuels from sunlight, modeling and simulation for 
nuclear reactors, and energy efficient building systems design; and one 
new Hub to conduct R&D on batteries and energy storage. The existing 46 
Energy Frontier Research Center (EFRC) grants to address scientific 
roadblocks to clean energy and energy security through collaborative 
research receive continued support in the President's 2011 Budget, and 
funding for a new solicitation for additional EFRCs to capture emerging 
opportunities in new materials and basic research is included as well. 
The 2011 Budget proposes $300 million for the Advanced Research 
Projects Agency-Energy (ARPA-E) that is authorized in the America 
COMPETES Act. ARPA-E will fund high-risk, high-reward research to yield 
revolutionary changes. in how we produce, distribute, and use energy. 
ARPA-E announced its first set of grants last October, and in 2010 will 
make additional awards with Recovery Act funds. The 2011 Budget will 
allow ARPA-E to make additional awards next year.
    The Department of Energy's Office of Science pursues discoveries 
and scientific tools in economically significant areas such as 
nanotechnology, high-end computing, energy, and climate change. The 
2011 Budget of $5.1 billion, 3.5 percent more than the 2010 enacted 
level in real terms (4.6 percent in current dollars), increases funding 
for facilities and cutting-edge research
    Investments in DOE's clean-energy R&D programs will help reduce 
dependence on foreign oil and accelerate the transition to a low-carbon 
economy. The President's 2011 Budget proposes R&D funding increases for 
solar energy, geothermal technology, energy-conservation building 
technologies, and nuclear energy. DOE also proposes an investment of 
$144 million in R&D to improve the reliability, efficiency, 
flexibility, and security of electricity transmission and distribution 
networks, $19 million more than the 2010 level.

Environmental Protection Agency (EPA)

    The Science and Technology (S&T) program of the Environmental 
Protection Agency (EPA) is $847 million in the 2011 Budget, just 
slightly above the 2010 enacted level. This amount includes 
computational toxicology research and the Science to Achieve Results 
(STAR) program that awards competitive extramural research grants in 
areas such as endocrine disruptors, green infrastructure, and air 
quality.

United States Geological Survey (USGS)

    The total United States Geological Survey (USGS) budget of $1.1 
billion is a $22 million increase over the 2010 enacted level, with 
substantial increases in the areas of climate change, renewable energy, 
and environmental satellite systems. Specifically, the 2011 USGS budget 
requests $72 million for the Global Change program, an increase of $14 
million over the 2010 funding level. This includes funding for the 
National Climate Change and Wildlife Science Center and carbon 
sequestration research. There is also a $13 million increase to support 
new ground-system capabilities for the Landsat Data Continuity Mission.

Department of Homeland Security (DHS)

    Department of Homeland Security (DHS) R&D totals $1.0 billion in 
the 2011 Budget, a reduction from the 2010 enacted level. The 
President's 2011 Budget proposes $109 million for the Domestic Nuclear 
Detection Office's Transfoxinational and Applied Research (TAR) 
portfolio and transfers it to the S&T Directorate in order to 
consolidate R&D activities department-wide.

Department of Transportation (DOT)/Federal Aviation Administration 
        (FAA)

    Department of Transportation (DOT) R&D programs receive $1.0 
billion in the 2011 Budget, a slight cut in real terms compared to the 
2010 funding level. Central to DOT's R&D activities is the Federal 
Aviation Administration's Research, Engineering, and Development 
program. The 2011 Budget for that program is $190 million, roughly the 
same as the 2010 enacted funding level. The Budget request includes 
funding for several R&D activities in the Next Generation Air 
Transportation System (NextGen) as well as the Joint Planning and 
Development Office that coordinates this important effort with NASA and 
other participating agencies.

National Institutes of Health (NIH)

    The National Institutes of Health (NIH) supports the discovery of 
knowledge and therapies that will lead to better health outcomes for 
all Americans through a robust program of intramural and extramural 
research, education, and training conducted or sponsored by 27 
Institutes and Centers--The 2011 Budget provides $32.1 billion for NIH, 
an increase of $1.0 billion, or 3.2 percent above the 2010 enacted 
level. Investments will focus on five strategic priorities with great 
promise: applying genomics and other high-throughput technologies; 
translating basic science discoveries into new and better treatments 
and diagnostics; using science to enable health care reform; global 
health; and reinvigorating and empowering the biomedical research 
community. NIH will also continue to award and oversee the $10.4 
billion provided in the Recovery Act.

Department of Defense (DOD)

    The 2011 Budget proposes $77.5 billion for Department of Defense 
(DOD) R&D. This $3.5 billion reduction from the 2010 enacted figure 
primarily reflects proposed cuts in lower priority weapons development 
programs. The Defense Advanced Research Projects Agency (DARPA) would 
receive $3.1 billion for longer-term breakthrough research, an increase 
of 2.6 percent in real terms. The 2011 Budget sustains DOD's basic 
research (``6.1'') with a record commitment of $2.0 billion, and 
provides increases for research in high priority areas such as night 
vision, cybersecurity, enhanced GPS, deployable force protection; nano-
manufacturing, and advanced distributed learning.

White House Office of Science and Technology Policy (OSTP)

    The White House Office of Science and Technology Policy (OSTP) 
works with OMB to ensure that the President's S&T priorities are 
reflected in the budgets of all of the Executive Branch departments and 
agencies with S&T and S"1'EM-education missions. OSTP also provides 
science and technology advice and analysis in support of the activities 
of the other offices in the Executive Office of the President and 
supports me in my role as the Assistant to the President for Science 
and Technology, with the responsibility to provide the President with 
such information about science and technology issues as he may request 
in connection with the policy matters before him. In addition, OSTP 
coordinates interagency research initiatives through administration of 
the National Science and Technology Council (NSTC), serves as the lead 
White House office in a range of bilateral and multilateral S&T 
activities internationally, and provides administrative and technical 
support for the very active 21-member President's Council of Advisers 
on Science and Technology (PCAST).
    OSTP personnel in addition to the Director include a Senate-
confirmed Associate Director for Technology, who is also the Nation's 
Chief Technology Officer; three further Senate-confirmed Associate 
Directors (for Science, Environment, and National Security and 
International Affairs): and a further 40 technical professionals plus 
supporting administrative staff The 2011 Budget requests $6.990 million 
for OSTP's operations, slightly below the 2010 enacted funding level. 
This support for OSTP reflects the President's continuing recognition 
of the importance and diversity of OSTP's functions in keeping 
``science in its rightful place'' in his Administration, as he pledged 
in his Inaugural Address.

Interagency Initiatives

    A number of priority interagency S&T initiatives are highlighted in 
the President's 2011 Budget. These initiatives are coordinated through 
the NSTC, which as noted above is administered by OSTP.

Networking and Information Technology R&D

    The multi-agency Networking and Information Technology Research and 
Development (NITRD) Program plans and coordinates agency research 
efforts in cyber security, high-end computing systems, advanced 
networking, software development, high-confidence systems, information 
management, and other information technologies. The 2011 Budget 
provides $4.3 billion for NITRD.
    Networking and computing capabilities are more critical than ever 
for national- and homeland security, reforming the health care system, 
understanding and responding to environmental stresses, increasing 
energy efficiencies and developing renewable energy sources, 
strengthening the security of our critical infrastructures including 
cyberspace, and revitalizing our educational system for the jobs of 
tomorrow. The 2011 Budget retains an important focus on investment in 
high-end computing research for both national security and large-scale 
scientific applications, particularly in advanced scalable simulations. 
The 2011 Budget also continues to emphasize foundations for assured 
computing and secure hardware, software, and network design and 
engineering to address the goal of making Internet communications more 
secure and reliable.

National Nanotechnology Initiative

    The 2011 Budget provides $1.8 billion for the multi-agency National 
Nanotechnology Initiative (NNI), a reduction of $19.5 million from the 
enacted 2010 level. Research and Development in the NNI focuses on the 
development of materials, devices, and systems that exploit the 
fundamentally distinct properties of matter at the nanoscale. NNI-
supported R&D is enabling breakthroughs in biomedical detection and 
treatment, manufacturing at or near the nanoscale, environmental 
monitoring and protection, energy conversion and storage, and novel 
electronic devices, among many others. The 2011 Budget proposes $35 
million for nano educational and societal dimensions research and $101 
million across several agencies for nanomanufacturing.
    Consistent with the NNI Strategy for Nanotechnology-Related 
Environmental Health and Safety (EHS) Research, agencies maintain a 
focus on developing nanotechnology responsibly, with attention to the 
human health and environmental impacts as well as ethical, legal, and 
other societal issues. In recognition of the special importance of 
these issues, the 2011 Budget increases the priority of nano EHS 
research with a request of $117 million, more than 27 percent above the 
2010 level.

U.S. Global Change Research Program

    The Budget includes an expanded commitment to global change 
research. Investments in climate science over the past several decades 
have contributed to an improved understanding of global climate. These 
additional investments will be a critical part of the President's 
overall strategy to mitigate U.S. greenhouse gas emissions and move 
toward a clean energy economy. To continue to assist the government and 
society to understand, predict, project, mitigate, and adapt to climate 
change, the 2011 Budget provides $2.6 billion for the multi-agency U.S. 
Global Change Research Program (USGCRP), an increase of 21 percent or 
$439 million over the 2010 enacted level.
    The USGCRP was mandated by Congress in the Global Change Research 
Act of 1990 (Pi. 101-606) to improve understanding of uncertainties in 
climate science, expand global observing systems, develop science-based 
resources to support policymaking and resource management, and 
communicate findings broadly among scientific and stakeholder 
communities. Thirteen departments and agencies participate in the 
USGCRP. OSTP and the Office of Management and Budget (OMB) work closely 
with the USGCRP to establish research priorities and funding plans to 
ensure the program is aligned with the Administration's priorities and 
reflects agency planning.
    In addition to enhancing research and modeling of the physical 
climate system, the 2011 USGCRP Budget will also allow for a 
comprehensive, coordinated focus on four areas of particular need: 
Earth observations, adaptation research, integrated assessment, and 
climate services.

Innovation, Entrepreneurship, and Job Creation

    The President believes that we must harness the power and potential 
of technology, data, and innovation to transform the nation's economy 
and to improve the lives of all Americans. The President's 2011 Budget 
targets strategic investments in technology to spur innovation in the 
public and private sectors and does so in a manner that changes the way 
Washington works. Let me share with you a few key highlights.
    As articulated in the President's Strategy for Innovation released 
last year, the Budget proposes a permanent extension of the research 
and experimentation (R&E) tax credit to spur private investment in 
research and development (R&D) by providing certainty that the credit 
will be available for the duration of the R&D investment.
    The Budget also promotes the commercialization of promising 
technologies through smart, strategic investments. The Budget proposes 
$12 million for the National Science Foundation (NSF) to support a new 
Innovation Ecosystem where universities will partner with other 
institutions to increase the impact of the most promising innovations 
through commercialization, industry alliances, and start-up formation. 
The Budget proposes an additional $10 million in National Institute of 
Standards and Technology (NIST) programs to foster innovation in 
manufacturing with an emphasis on sustainable nanomanufacturing.
    The President's Budget is also focused on entrepreneurs and small 
businesses as engines of innovation, and has targeted policies and 
investments to help entrepreneurs and small businesses build new and 
vibrant enterprises that lead to new jobs and economic growth. Given 
the difficulties in this recession for many small businesses to access 
the capital they need to operate, grow, and create new jobs, the Budget 
provides $165 million in subsidy costs to support $17.5 billion in 
Small Business Administration 7(a) loan guarantees that will help small 
businesses operate and expand. It also proposes to increase the maximum 
7(a) loan size from $2 million to $5 million and to provides incentives 
for the private sector to invest by extending an additional year of the 
50 percent deduction of qualifying investments. The Budget provides a 
one-year extension for small businesses to immediately write off up to 
$250,000 of qualified investment and it proposes to permanently 
eliminate small-business capital gains for investors who hold their 
investments for five years.
    The Administration also recognizes that competitive, high-
performing regional economies are the building blocks of national 
growth, and that we must expand and accelerate our efforts to cultivate 
regional economic clusters across the country. The Budget provides at 
least $75 million in regional planning and matching grants within the 
Economic Development Administration (EDA) to support the creation of 
regional innovation clusters that leverage regions' competitive 
strengths to boost job creation and economic growth.
    What I have given you is only a brief snapshot. As you know, there 
is important work being done in broadband, spectrum policy, patent 
reform, standards and measurements for emerging technologies, support 
for the development and adoption of health information technology, and 
export promotion. These efforts and investments will help build the 
foundation for sustainable recovery, by fostering the new jobs and 
industries that will arise from the innovative and entrepreneurial 
talents of the American people.

Science, Technology, Engineering, and Mathematics (STEM) Education

    The President has been emphatic about his commitment, which I 
share, to increase the participation and the performance of American 
students in science, technology, engineering, and mathematics, aiming 
to improve our performance in comparison with other nations from the 
middle of the pack to the top of the pack over the next decade. Over 
the past year, OSTP has been working with the White House Domestic 
Policy Council, the Department of Education, and a number of science 
and technology agencies to identify and promote concrete actions to 
help meet this ambitious goal.
    The 2011 Budget invests $3.7 billion in STEM education programs 
across the Federal Government, including a historic $1 billion 
commitment to improve math and science achievement among K-12 students, 
that latter figure an increase of over 40 percent. The impact of these 
investments will be magnified by ``Educate to Innovate'', a campaign 
launched by the President to motivate and inspire young people to excel 
in STEM education. This campaign has already mobilized over $500 
million in financial and in-kind support from companies, foundations, 
philanthropists, universities, non-profit organizations, and grassroots 
volunteers.
    In addition to these investments, the Administration has made great 
strides in integrating STEM education into broader education programs. 
For example, the $4.35 billion Race to the Top fund in the Recovery Act 
provides a competitive advantage to states that commit to a 
comprehensive strategy to improve STEM education. The 2011 Budget, by 
providing an additional $1.35 billion in funding for Race to the Top, 
builds on these historic investments to create state capacity, focus on 
student achievement, and help prepare America's students to graduate 
ready for college and careers.
    This Administration is committed to investing in and scaling what 
works, and to improving the coordination of Federal STEM education 
programs. The Department of Education and the National Science 
Foundation (NSF) are leading an effort, with active OSTP participation, 
to increase the impact of the Federal STEM investments I've outlined 
above by (1) developing an aligned strategy that emphasizes key agency 
capacities; (2) clarifying evidence standards used to assess program 
impact; and (3) identifying the most promising STEM efforts for further 
validation, testing, and suitability for scale-up. OSTP looks forward 
to working with this Committee on our common vision of improving STEM 
education for all of America's students.

Conclusion

    The investments in R&D and S1EM education proposed in the 
President's FY 2011 Budget reflect his clear understanding of the 
critical importance of science, technology, and innovation in 
addressing the most compelling changes our Nation faces. While 
respecting the need for overall budgetary restraint under difficult 
economic conditions, the President is recommending an array of 
investments in R&D and STEM education that will keep this country on a 
path to revitalized economic growth, real energy security, intelligent 
environmental stewardship, better health outcomes for more Americans at 
lower costs, strengthened national and homeland security, and 
continuing leadership in science and in space. I look forward to 
working with this Committee to make the vision of the President's FY 
2011 Budget proposal into a reality. I will be pleased to try to answer 
any questions the Members may have.

    Chairman Gordon. Thank you, Dr. Holdren. At this point we 
will begin our first round of questions. The Chair recognizes 
himself for five minutes.
    Dr. Holdren, I think in your preface to your statement, you 
summed up very well the importance of R&D as well as STEM 
education to our future quality of life, standard of living and 
national security. That is why I think you have one of the most 
important and toughest jobs probably in the world, and so we 
want to see you succeed. I was pleased that in your statement, 
or the written statement, you had linked innovation, 
entrepreneurship and job creation and you highlighted the 
National Science Foundation's Innovation Ecosystem program and 
the EDA's efforts supporting Regional Innovation Clusters. In 
addition, DOE is supporting the creation of innovation hubs and 
clusters, and could you please explain how these initiatives 
complement each other and how they are being coordinated? And 
also, could you summarize the primary goals of the 
Administration's innovative initiatives and the metrics used to 
measure their success?
    Dr. Holdren. Sure, I will give that one a try. Those 
initiatives are linked. One of the things that is in the new 
budget proposal in the Regional Innovation Cluster domain is 
something called E-RIC, Energy Regional Innovation Clusters. 
Seven agencies are involved in that, building innovation 
clusters around the energy innovation hubs that the Department 
of Energy has already initiated. NSF is involved with that, 
along with DOE and five other agencies. The first one of those 
is going to be focused on efficient building energy systems. In 
the way of metrics, this is a longstanding and difficult 
challenge, figuring how to measure real progress in these 
domains, but we think we will be able to see that progress in 
the rate of job creation in these areas where these innovation 
centers are being set up. We think we will be able to see it in 
the rate of actual science and technological innovation 
reflected in publications and patents. We think we will see it 
ultimately in terms of economic indicators.
    Chairman Gordon. And what is the time frame on getting 
these clusters and hubs set up?
    Dr. Holdren. Well, they are already--the hubs are already 
being set up and moving forward into the 2011 budget with 
support for these activities. I think we will see rapid 
progress on this. I think the players are ready to go. We are 
getting tremendous enthusiasm, I have to tell you, Mr. 
Chairman, from industry, from the private sector for the 
Administration's commitment to increasing public-private 
partnerships in all these domains.
    Chairman Gordon. Well, we have seen that in a variety of 
areas. Obviously with STEM education, the private sector 
dollars are coming in because they understand the importance. 
In ARPA-E, there is matching funds there, and we discovered 
that the private sector put up even more money than was 
required because I think there is a thirst for this R&D and a 
need.
    So with that, I now yield to my friend from Texas, Mr. 
Hall.
    Mr. Hall. Mr. Chairman, thank you, and Dr. Holdren, my 
question will probably be longer than your answer, but I will 
read it the best I can. The Congress has seen a number of game-
changing proposals over the years that you know about including 
several technology development and commercially inspired ideas. 
NASA pursued the X-33 Venture Star Orbital Space Plane, a crew 
return vehicle, X-37, as well as technology development 
programs such as the Space Launch Initiative, and I have an old 
pattern I follow in almost everything I have done all my life, 
and I got it from an old broke storekeeper. He said, ``I ignore 
the impossible and cooperate with the inevitable,'' and I want 
to try to cooperate with you because I know you are sincere, I 
hope you are correct, and I agree with you. I don't care to go 
to the moon until our people can go to the grocery store. It is 
not the time to do that.
    But we do have to look at hard, cold facts before we make 
such changes as you recommended. These efforts that I spoke of 
a moment ago, spending billions of dollars without anything 
really significant to show for it. The Constellation program 
was born out of the Columbia accident. Its vision was rooted in 
key recommendations of the Columbia accident investigation 
board including, and I quote, ``attempts at developing 
breakthrough space transportation systems have proved 
illusory.'' The board believes that the country should plan for 
future space transportation capabilities without making them 
dependent on technological breakthroughs. Furthermore, the 
board said the design of the system should give overriding 
priority to crew safety rather than trade safety against other 
performance criteria such as low cost and reusability. The 
Obama Administration's proposals ignore the lessons of the 
Columbia accident investigation board and the decades of human 
spaceflight experience that have been gained with the lives of 
at least 17 astronauts since 1967. So I ask this question: How 
can you defend the proposal to cancel the Constellation program 
without any rational--and this next is a huge word--proven 
alternative plan? I have used up most of my time but I would 
like to hear your answer.
    Dr. Holdren. Well, I thank the Ranking Member for that 
question. I am afraid my answer probably will be at least as 
long as the question, but let me see if I can keep it brief.
    The first part of the question referred to a number of 
ventures in space in which we invested lots of money and 
seemingly nothing came out. I would argue first of all that we 
learned from every one of those. We learned a great deal, for 
example, from the X-33 and the lessons that we learned from 
those investments are still being applied and will continue to 
be applied. The second point I would make is that in terms of 
reliance on commercial firms, we have been relying on 
commercial firms from the beginning of the space program. 
McDonnell built the Mercury capsule. General Dynamics launched 
it on an Atlas converted from an ICBM. Rockwell International 
built the space shuttle. What we are changing in looking 
increasingly to the private sector to partner with for lifting 
astronauts into low earth orbit is not reliance on the private 
sector. We are changing the acquisition model so that we are 
acquiring services rather than acquiring the actual vehicles. 
But it will continue to be true that NASA will be deeply 
involved in and responsible for ensuring the safety of the 
astronauts, whatever we launch them on. Administrator Bolden, 
as you know, a former four-time astronaut, twice pilot, twice 
commander, was head of safety for the astronaut team in his 
time, has served on the advisory body on safety for NASA. This 
administrator is not going to settle for anything less than 
safety for the astronauts.
    With respect to the Constellation program, with all respect 
and kudos to the NASA team and the contractors who have worked 
very hard, the fact is, as the Augustine Committee concluded, 
the Constellation program was unexecutable in its current form. 
If you wanted to get Constellation to the point where it could 
return U.S. astronauts to the surface of the moon even before 
2025, the additional cost of that over the next decade from 
2010 to 2020 would be, in the Augustine Committee's estimate, 
between $45 billion and $60 billion, and that to do something 
that we already did 50 years or more before we would be able to 
do it again. Each component of it was very seriously over 
budget. So we think that what we are proposing is a program 
that has a better chance of success than Constellation did at 
delivering what the American people want and expect from their 
space program, which is innovation, which is a forward-leaning 
program with exciting vision, exciting ideas, the possibility 
of ultimately taking Americans into deep space beyond the 
earth-moon system, with better technologies, more efficiently, 
more safety than Constellation would ever have been able to 
manage, and we are doing it in a budget that we can afford. 
Obviously in these times, matching the goal, matching the 
approach to the available resources is crucial and we think 
that the Administration proposal does that.
    Mr. Hall. I thank you, and I go back to the word I spoke 
there, proven. That is the one that I think worries most of us. 
I thank you for your good answers, sir.
    Chairman Gordon. Dr. Baird is recognized for five minutes.
    Mr. Baird. Dr. Holdren, thanks for your testimony and 
thanks for your service and for being here today. I just very 
briefly want to commend the Administration and you. It looks 
like we are finally try to resolve two issues that have been 
longstanding and complex and threaten our viability in many 
areas of science. The NPOESS satellite issue we have had 
hearings on, so I commend you. It looks like you want to try to 
get that thing finally sorted out, and also the icebreaker 
issue that has long been a conflict between Coast Guard and 
NSF, so I want to compliment you on that.
    One of my colleagues has raised this issue of questions 
about research on climate change. It happens that several years 
back I introduced legislation that requested NSF to include 
scientific ethics teaching as part of all its grant recipients. 
So if you are a student receiving those grants, you have got to 
get some ethics training, and I think it is appropriate. My 
clinical psychology mandates that, and my doctorate training.
    But I want to ask you and give you the opportunity, 
notwithstanding the troubling emergence of questions about 
certain data sets--do you believe and do you care to comment on 
the overall evidentiary basis for human anthropogenic CO<INF>2</INF> 
and other greenhouse gases leading to likely ocean 
acidification, increasing global temperatures and other 
phenomena. Would you care to address that, if you like?
    Dr. Holdren. Yes, I am very happy to address that, 
Congressman. I would characterize the overall evidentiary base 
as robust. We understand the climate is changing in unusual 
ways compared to the background of natural variations. We 
understand with high confidence that human activities are 
responsible for a substantial part of the change we are 
observing, and I emphasize change we are observing. These are 
not computer models, they are measurements of rises in the 
temperature of the air, of the oceans, the retreat of glaciers 
in many parts of the world, changes in growing seasons, changes 
in species distributions, changes in precipitation patterns, 
and furthermore, the pattern of all of these changes fits what 
would be expected for the result of an increase in the 
atmospheric burden of greenhouse gases, carbon dioxide, methane 
and others.
    We know as well from measurements that the acidity of the 
ocean is increasing. We know that is occurring. Part of the 
excess carbon dioxide in the atmosphere is taken up in the 
ocean and becomes carbonic acid. We know that ultimately that 
will have impacts on coral reefs and other organisms that form 
shells and skeletons out of calcium carbonate.
    The revelations in the e-mails from East Anglia 
University's climate research unit I think have been blown out 
of all proportion. They reveal an array of human frailties, 
certainly, including impatience with criticism, including 
defensiveness. Scientists are no less human than any other body 
of people, and when they are writing e-mails to each other, you 
will see some of those frailties. But what those e-mails add up 
to in terms of actually undermining scientific understanding of 
what is happening in climate is basically nothing. The 
particular controversy that those e-mails were mostly swirling 
around was a controversy that was settled by a detailed review 
by the National Academy of Sciences, published in 2006, which 
concluded that the overall funding of the study that was being 
criticized in many of those e-mails was basically sound, namely 
that with high likelihood it is true that the last 50 years 
have been the warmest half-century in the last several hundred, 
probably in the last 1,000 to 2,000. They concluded also that 
the method of analysis used to produce that initial report was 
fundamentally respectable and sound. Experts quarrel about the 
details but all of the different studies that have been done of 
that question with different methods, different approaches, 
different statistical techniques have all produced essentially 
the same result.
    Mr. Baird. So the key point would be that while one can 
find relatively isolated incidents where certain data sets may 
be called into question, the broad bulk of the data continues 
to point in a particular direction, particularly regarding 
ocean acidification and also temperature increase.
    Dr. Holdren. Yes.
    Mr. Baird. One last comment. You talked about business. I 
was at the World Economic Forum recently, and my impression is 
that the bulk of businesses of the world, chemical industry, 
many energy industries, et cetera, accept the evidence that 
anthropogenic CO<INF>2</INF> is in fact changing our climate 
and changing the ocean, and we need to do something about it, 
and they are in fact ahead of this institution and others in 
insisting that we do something to incentivize and support 
businesses doing the right thing. Is that your impression?
    Dr. Holdren. It is my impression, and it is my impression 
that it has been true for years. We had CEOs of some of the 
biggest energy companies and chemical companies in this country 
testifying five years ago before a committee of the United 
States Senate, and uniformly saying, it is time we start to 
address this problem, and what the private sector wants is 
certainty. What the private sector wants is a level playing 
field. What they want is predictability. They don't want to 
ignore this problem and they understand, a great many of them, 
that there will be a lot of money made in developing and 
marketing the technologies that are going to enable us to meet 
our energy needs while reducing our impacts on the climate and 
other aspects of the environment.
    Mr. Baird. Thank you, Doctor.
    Thank you, Mr. Chairman.
    Chairman Gordon. Dr. Ehlers is recognized for five minutes.
    Mr. Ehlers. Thank you, Mr. Chairman, and thank you, Dr. 
Holdren, for being here and for a very cogent and thoughtful 
presentation.
    I would like to in the limited time that we are provided 
just comment about STEM education issues. As you know, I spent 
a lot of time on this. In fact, when I first started it was 
called SMET, and I objected very strongly to that term. It had 
a bad connotation, SMET education.
    Chairman Gordon. What is that acronym?
    Mr. Ehlers. Same words but different order, science, math, 
education, technology.
    Mr. Baird. Sherry Boehlert proposed it be METS but that was 
for a different reason.
    Mr. Ehlers. Well, he was a baseball fanatic.
    But in any event, it is now STEM education. A continuing 
problem we have had not just with this Administration but 
previous administrations is a perceived conflict between the 
National Science Foundation and the Department of Education on 
STEM education, and in fact at one time the OMB in the budget 
tried to zero out the National Science Foundation participation 
and put that money into the Department of Education because it 
was duplicative to have two agencies working on the same issue. 
That indicated a very shallow understanding of the mission of 
both the National Science Foundation and the Department of 
Education. It is disappointing to me to see in this 
Administration's budget proposal the same thing taking place, 
primarily zeroing out the NSF participation in STEM education. 
As you well know, as a scientist and a good friend of mine, 
there is a big difference between NSF's role in this and it is 
a very important role to do the research on the effectiveness 
of various methodologies of teaching, to experiment with 
different approaches to teaching it, and the NSF has been very 
carefully doing the groundwork for developing good STEM 
education programs whereas the Department of Education is 
primarily interested in propagating that out throughout the 
school systems in the country. They should be working together. 
They should have equal funding, not so much in dollars but in 
terms of the work they do, and I am concerned that your 
Administration apparently--maybe it is just a carryover in OMB 
that creates the problems, but it is leaving the NSF high and 
dry.
    Now, fortunately, NSF got a fair amount of money through 
the Recovery Act so it is not a life emergency here but it is a 
trend that I would hope that you would speak out against within 
the Administration and be able to reverse, and it might be in 
fact a good idea to have an Administration work group outlining 
very clearly what each of those agencies can and should 
contribute to STEM education and then use that as a guide for 
the budgeting allocations. I would appreciate any comments or 
insights you could offer on this.
    Dr. Holdren. Well, thank you, Congressman Ehlers, for that 
question. Let me make a couple of comments. I don't actually 
think there is, in this Administration, tension any longer 
between NSF and the Department of Education about this. One of 
the things that President Obama made clear in the very first 
Cabinet meeting was that across the board in all the challenges 
we face, including education, the challenges are too big and 
the resources too limited for us to afford not to cooperate, 
and the President has called for cooperation and there is a lot 
of it. I meet regularly with Secretary Duncan. I meet with the 
NSF director, Arden Bement. Of course, Dr. Bement has announced 
his retirement to return to Purdue. We will be nominating a new 
director of NSF, and while I can't say at this moment who that 
will be, I can assure you it will be somebody who is committed 
to the education component of NSF's mission as well as the 
rest.
    The other thing I would say about the budget is that what 
has happened increasingly in NSF is that almost every science 
program has education embedded in it. A very large percentage 
of the grants have an education component. A lot of the 
divisions in NSF actually require that the grants have an 
education component, and I know from firsthand experience from 
when I was the director of the Woods Hole Research Center, when 
one of our scientists had one of those grants, that there has 
been tremendously innovative activity in STEM education going 
on with NSF money through that particular mechanism.
    But on your bottom line, that you hope I will advocate for 
continued NSF engagement in this domain and for cooperation 
between NSF and the Department of Education, I can assure you 
that I will.
    Mr. Ehlers. I just--it looks to me like you have flat 
funding or decrease in the K-12 funding at NSF. What am I 
missing here? I realize it is spread across the agency but that 
is--you know, those particular areas----
    Dr. Holdren. Well, I think what you are missing, 
Congressman, is that there are lots of funds in NSF that aren't 
labeled education per se in the budget line that are going to 
education. I give you the example that I am particularly 
familiar with because of the engagement of the Woods Hole 
Research Center. With it was a program on Arctic science that 
had a very large K-12 component in it, not listed as education 
in the NSF's budget, but involving kids in communities all 
around the Arctic Circle in hands-on research on the chemistry 
of surface waters in the great rivers flowing into the Arctic 
in a manner that has propagated and led to programs 
additionally in the United States getting school kids involved 
in real measurements. This is just one grant. Not a dime of it 
is showing up in the NSF's education line, but it is education 
of a sort that really matters, hands-on engagement of kids in 
science and technology.
    Mr. Ehlers. Rather than taking any more time on this issue, 
I will pursue it with you privately later on.
    Dr. Holdren. Happy to do that.
    Mr. Ehlers. But thank you very much for your interest in 
the issue, and I yield back.
    Chairman Gordon. We will sign up Dr. Ehlers for support of 
STEM education. Is that fair to say?
    Mr. Ehlers. Yes, as long as it is not SMET.
    Chairman Gordon. Mr. Lujan is recognized.
    Mr. Lujan. Mr. Chairman, thank you very much.
    Dr. Holdren, thank you again for your service and for being 
here today. To take off or to lead off where the Chairman left 
off, Dr. Holdren, highlighting the importance of you linking 
innovation, entrepreneurship and job creation together, where 
we are looking to those that have the capabilities of solving 
problems and bringing that innovative expertise into the 
marketplace and creating job opportunities and solving big 
problems, I would ask this: that as we look to see what DHS has 
done most recently in collaborating efforts with some of our 
NNSA [National Nuclear Security Administration] facilities over 
at DOE to be able to solve big problems, to be able to look at 
systematic approaches to making sure that we are identifying 
areas that we need to depend on some of our scientists, where 
we are able to develop some technology for imaging to identify 
liquids and explosives from a technology that came from mapping 
the brain, and we are now seeing how that potentially could 
move forward for deployment. To support that, the Science 
Foundation has some of our brilliant scientists and most 
brilliant minds around the country, like at the Santa Fe 
Institute where we are challenging these brain trusts to be 
able to solve big problems, is something that I hope we can 
bring more support to. And as we focus on job creation and 
innovation in the next several months, years and decades, I 
believe that it is critically important for us to examine our 
role in promoting the transfer of technology from our Federal 
NNSA National laboratories. How we can learn from the 
Stevenson-Wydler and Bayh-Dole technology transfer acts that 
were signed into law over 30 years ago. Much has changed at 
both the federal and university labs over the years, as well as 
in the U.S. business community, and has the Administration 
given any thought to reviewing the only laws governing 
federally funded technology transfer and how their 
implementation might be optimized to support innovation and job 
creation in today's globally environment? And how can we best 
ensure that federal funding directed towards technology 
transfer is being used efficiently and effectively?
    Dr. Holdren. Well, thank you for that question, 
Congressman. Let me say first of all, I have a particular 
longstanding interest of my own in the national laboratories. 
My first job after my Ph.D. was at the Livermore Laboratory. I 
interviewed at both Los Alamos and Sandia as well, and I have 
actually been spending a fair amount of time in my current job 
meeting with Secretary Chu and the NNSA Administrator Tom 
D'Agostino talking about exactly this question, how we can get 
those great national laboratories to contribute even more to 
our national well-being by being more effective in the domain 
of technology transfer, of getting ideas and innovations from 
those laboratories and developed in partnerships between those 
laboratories and the private sector actually into the 
marketplace, and we have a number of ideas about how to do 
that. We are increasingly thinking of these laboratories that 
have sometimes been called ``weapons laboratories'' as being 
national security laboratories in the broadest sense, because 
so much of what they do has application far outside as you have 
already suggested the weapons domain itself. This is an area 
that we are working on and we will be looking at the existing 
array of laws and regulations affecting that manner of 
technology transfer and seeing how we can improve them.
    Mr. Lujan. Thank you very much, Dr. Holdren.
    Mr. Chairman, I know that we have had conversations about 
this, and how we can make sure that we are working in a more 
collaborative way to be able to bring some of these big ideas 
to fruition and move to the side where we are commercializing 
these big ideas to technology that are game changers, really, 
and everyday applications and uses, and I very much appreciate, 
Dr. Holdren, the understanding on how some of this research 
with some of our defense facilities plays an enormous role in 
non-defense application and research and some of the gains and 
wins that we get out of there as well, and so I appreciate that 
very much.
    Lastly, Dr. Holdren, one thing that I wanted to also go 
over is, with the Administration's request of the Office of 
Nuclear Energy increasing and so the Administration has 
recognized nuclear energy to focus primarily on closing the 
nuclear fuel cycle and developing advanced nuclear reactor 
technologies. The President has also asked and has created a 
blue ribbon panel to examine alternative solutions to waste 
storage, and so can you elaborate on the Administration's plan 
for developing safe, long-term solutions to managing the 
Nation's spent fuel rods to waste by using science to either 
recycle or break down the spent fuel?
    Dr. Holdren. There is a very wide range of technical 
possibilities for how one deals with spent fuels. Some of those 
possibilities of course involve trying to recover the energy 
value in the fuel in various forms of reprocessing and 
recycling. Other approaches involve simply trying to process it 
in ways that reduce its radiological hazard over time. I don't 
want to prejudge what the findings of the Blue Ribbon 
Commission will be. I was involved in consultation with 
Secretary Chu in picking the folks who would be put on that 
commission. I think it is genuinely a blue ribbon group. It has 
some of the smartest people in the country in terms of their 
understanding of this array of possibilities. I think they are 
going to lay out the options in a way that will be very useful. 
There are a variety of different ways we could go. They have 
economic connotations, environmental connotations, national 
security connotations. The panel has a charge that requires it 
to take all those into account. So I am going to wait for their 
report before I weigh in with any thoughts of my own about what 
the winner might be.
    Chairman Gordon. Thank you, Mr. Lujan. You raised an 
important question, or issue, in terms of technology transfer 
from research to the private sector to jobs. I think that 
starts with sensitivity in doing it. I am seeing that and 
feeling that, I think, with the national labs. And the other 
thing I really think is that ARPA-E is going to help us with 
the model on how that can occur.
    Mrs. Biggert is recognized for five minutes.
    Mrs. Biggert. Thank you, Mr. Chairman, and thank you, Dr. 
Holdren, for being here. In your testimony, you refer to 
investments in R&D as promoting new technologies and 
maintaining America's competitiveness, which I applaud you for. 
Do you believe that leadership computing capability, like what 
we have at Argonne in my district, is also important to those 
goals?
    Dr. Holdren. Absolutely. I think computing capacity is 
immensely important, and it is important in a wide variety of 
domains, in national security, in scientific intelligence, in 
environmental science and a great deal else. We have a strong 
focus on information technology in this Administration. We have 
both a Chief Technology Officer and a Chief Information Officer 
in the Administration for the first time. The Chief Technology 
Officer, Aneesh Chopra, also works as the Associate Director of 
OSTP for Technology and has that domain, and we are doing a lot 
of, I think, really interesting and innovative things in 
investing in an improved computing and more broadly information 
infrastructure in this country because it matters not just to 
science, not just to national security, it matters a lot to the 
economy.
    Mrs. Biggert. Thank you. Then moving on to something else, 
the U.S. trade deficit in 2008, the deficit in high-technology 
products was $55.5 billion dollars up from $16.6 billion 
dollars in 2002. I guess those are the latest figures that I 
have. But the U.S. trade balance was last in surplus in 2001 
and a portion of this deficit is from U.S. companies that 
manufacture overseas and bring their products back to the 
United States, and even if we invest more in research and 
development programs and attract more professionals into these 
fields, how do we discourage companies from taking their 
production outside of the United States?
    Dr. Holdren. I have to say, Congresswoman, that that 
question is way outside my domain of expertise; that is, 
international economic policy is not my strength, and I would 
be worried about what Larry Summers would do to me or Christy 
Romer when I got back to the White House.
    Mrs. Biggert. Well, I serve on those committees too so I am 
always try to find the answers.
    Dr. Holdren. I would love to find the answer too. I know 
the President is committed to doubling U.S. exports over the 
next few years. We know this is immensely important. High-tech 
exports are going to have to play a role in it.
    Mrs. Biggert. I know that he mentioned it in his State of 
the Union. I hope you convey that if we can get those trade 
agreements that on the table right now, that would be very 
helpful, Panama and South Korea and Colombia.
    Dr. Holdren. I will convey that message back.
    Mrs. Biggert. Thank you. Then in 2009, you had an interview 
with Nature magazine and you said that we ultimately ought to 
look to put all uranium enrichment and fuel reprocessing if any 
is done under multi-national control. You said, ``I think the 
world is ready for that.'' Could you elaborate on that 
statement, or do you still believe----
    Dr. Holdren. I will elaborate on it a bit. If we want 
nuclear energy to be expandable again, not just in this country 
but around the world, and we want it to be expandable enough to 
make a difference, expandable enough to take a bite, for 
example, out of global greenhouse gas emissions, then nuclear 
reactors are going to have to be built in a lot of countries 
besides the United States, and if that is going to happen, the 
biggest single obstacle to achieving that in a manner that is 
in fact sustainable is avoiding the proliferation linkage, 
avoiding those technologies being misused to develop nuclear 
weapons capabilities in additional countries. The two points of 
vulnerability that link nuclear energy technology with nuclear 
weapons technology are the fuel enrichment plants, and if one 
chooses to reprocess and recycle, the fuel reprocessing plants. 
A purely technical approach to controlling that problem, simply 
by making periodic visits and measurements at uranium 
enrichment plants and measurements at uranium enrichment plants 
and reprocessing plants, are not adequate. Everybody who has 
looked at that picture realizes that the uncertainties in that 
process are too big, the proliferation dangers too large. In my 
judgment, in the long run the most certain way to avoid 
proliferation from nuclear energy is to put the enrichment 
plants and the reprocessing plants under international 
management so that countries watch each other.
    I think the United States could well afford to do this. 
Many of the other nuclear weapons states have indicated that 
they are ready to do it. And I believe it would give us the 
best option for a substantially increased contribution from 
nuclear energy around the world without an unacceptable 
proliferation liability.
    Mrs. Biggert. And then going back to Yucca Mountain and the 
storage, and I am very much for reprocessing and whatever we 
can do and to speed that up so that we won't have to store the 
nuclear materials, nuclear waste in such large quantity, and 
that is why I am concerned that the Administration has made it 
clear really its intention to shut down Yucca Mountain, and the 
Department of Energy has formally withdrawn its license 
application before the NRC [Nuclear Regulatory Commission]. 
Given the circumstances surrounding this decision, particularly 
the fact that it was made before the NRC could complete its 
scientific review of the application, and before the merits of 
any alternative options were reviewed, it appears that you 
could say that this is really a political decision, and I think 
that there should be important policy decisions on this rather 
than just a political decision. So, you know, we have expended 
more than $10 billion dollars in Yucca Mountain, taxpayer 
dollars, and it seems premature to do this. Do you think that 
this will go forward or--you said you have a commission that is 
looking at it, and how long will that take?
    Dr. Holdren. There is a Blue Ribbon Commission that has 
been set up. I think the time scale for that is a year or two. 
It is going to be a very deep and wide-ranging study of the 
alternatives. I myself would argue, as I argued in a different 
context a moment ago, that the money that has been invested in 
Yucca Mountain up until now has not been wasted even if we 
don't end up using Yucca Mountain as a repository because we 
have learned a lot about the characteristics of repositories 
and the challenges that have to be met in order to make a 
repository successful.
    You asked whether that was not a political decision. I 
think any decision made in Washington has politics in it in the 
sense that decision makers have to decide what is going to fly, 
what is practical, what do we have a chance of getting into 
operation. I think a decision was made that in light of both 
the technical uncertainties and the forms and degrees of 
political opposition that it was not likely that we could put 
Yucca Mountain into operation on any early time scale, and so 
that was the decision that was made, but the Blue Ribbon 
Commission is going to look at everything, and if they conclude 
that going back to Yucca Mountain is the best idea we have got, 
I am sure they will say so.
    Mrs. Biggert. Thank you. I yield back.
    Chairman Gordon. Thank you, Mrs. Biggert. I will also point 
out to the gentlelady that we are soon going to be having 
hearings with the intention of authorization concerning 
research programs within nuclear energy both in terms of 
design, reprocessing and storage. So we will have a chance to, 
as we should, vet this issue.
    Mrs. Biggert. Thank you. I look forward to that.
    Chairman Gordon. Mrs. Dahlkemper is recognized.
    Mrs. Dahlkemper. Thank you, Mr. Chairman, and thank you, 
Dr. Holdren. I wanted to ask you a little bit about the 
President's determination to double our R&D expenditures by 
2017, and just can you maybe comment on the importance of the 
maintenance of that funding growth and our Nation's industrial, 
competitive, and economic security in the long run? I come from 
an area that always has been a manufacturing base, and we have 
certainly seen many jobs--I would concur with the trade deficit 
that we are currently seeing. We have lost many jobs in my 
area. I just want to have your comments on the President's 
goals here.
    Dr. Holdren. Thank you, Congresswoman. Let me first be 
clear that the President has proposed to double the budgets of 
three specific agencies on that time scale: the National 
Science Foundation, the DOE Office of Science and the NIST 
laboratories. So he is not proposing to double the entire R&D 
budget of the country on that time scale. That would be a 
bigger challenge in the budget times we face. The roles of 
those particular agencies are very heavily weighted toward 
fundamental science, and in the case of the NIST laboratories, 
in a variety of directions that have the potential to support 
real advances in things like manufacturing. NIST works in 
nanotechnology. They work in advanced forms of measurement. 
They work in printed circuits. They work in a variety of fields 
that we believe have high potential ultimately for the 
manufacturing sector. And so those investments across those 
three particular agencies--the DOE Office of Science has very 
heavy investments in material science, in chemical engineering, 
in a variety of disciplines that again have high potential for 
the industries of the future. The NSF of course is active 
across a very wide range of fundamental science questions, and 
again, the attractiveness of doubling those particular agencies 
is not only that they are highly relevant but that they are 
relatively inexpensive compared to many other domains of 
applied research and development. So you get the potential for 
a large bang for the buck by increasing those particular 
investments at a time when you can't afford to increase 
everything.
    Mrs. Dahlkemper. You did mention the nanotechnology, and 
there is a slightly decrease from the fiscal year 2010 funding. 
Can you please explain that decrease in the funding for 
nanotechnology, for the National Nanotechnology Initiative?
    Dr. Holdren. I feel a little premature in answering that 
because we have got a nanotechnology working group in PCAST, 
the President's Council of Advisors on Science and Technology, 
that we expect to report at the time of our meeting with the 
President in early March and they are looking at exactly that 
question. I would guess that part of that is that industry is 
becoming more heavily involved in the nanotech area, and we 
always want to look not to have the government paying for 
things that industry is willing to do, and as industry takes a 
larger role, the government can sometimes afford to take a 
smaller one. But that is a guess at this point. We have a very 
high-caliber group in PCAST looking at just that question, and 
so the next time I come and testify, I hope I will have a 
better answer.
    Mrs. Dahlkemper. I look forward to that. Thank you, and I 
yield back.
    Chairman Gordon. Thank you, Mrs. Dahlkemper. I will quickly 
point out that that doubling in the Office of Science, NIST and 
the National Science Foundation was really a fundamental part 
of the COMPETES Act and we are going to be reviewing that soon 
in terms of the progress, and I think that is a very important 
element.
    And in terms of nanotechnology, where there was a decrease 
generally in terms of health and safety, there was an increase, 
and that is really what I think industry is looking for right 
now is those health and safety types of validation as they get 
more and more products out to market.
    So Dr. Broun is recognized for five minutes.
    Mr. Broun. Thank you, Mr. Chairman.
    Dr. Holdren, first off I would like to thank you for the 
letter I received just yesterday regarding the Administration's 
efforts to ensure scientific integrity. You might recall I 
initially wrote you on July 13th and again on October 2nd and 
then once again on December 1st. In fact, I was beginning to 
wonder if the lights were on over there in your office. So it 
is good to know that you were able to find time to eventually 
reply to my letters the day before this hearing.
    Mr. Chairman, I would like to ask unanimous consent to 
enter these three letters as well as the Director's response 
into the record.
    [See Appendix 3]
    Chairman Gordon. Without objection.
    Mr. Broun. Thank you, Mr. Chairman.
    On March 9th--well, let me go back on the records, on these 
letters. These focus on basically three things: the magnitude 
of climate change, and I believe they have exaggerated the 
magnitude, the causes of climate change as well as the 
scientific method utilized, and in fact, I have asked questions 
before about scientific integrity and whether members of the 
Administration would at least admit that there is no scientific 
consensus about the causes of the climate change, and I have 
had a negative response from many members of the Administration 
on that because there is no scientific consensus on climate 
change. In fact, what I see from this Administration it seems 
to me is they are holding onto the idea that the world is flat.
    But going on, on March 9, 2009, the President directed you 
to develop recommendations to ``guarantee scientific integrity 
throughout the executive branch'' within 120 days. The memo 
also stated that the ``public must be able to trust the science 
and scientific process informing public policy decisions.'' 
When I wrote you last June, I called your attention to a 
troubling pattern that I saw developing within the government 
where decisions were being based not on the best science but 
for political reasons. However, within six months, the 
Administration has already racked up quite a sizable list of 
questionable acts. Those were clearly laid out in my letter so 
I won't waste time by repeating them but those issues still 
remain. Unfortunately, your response didn't address a single 
issue I brought up in my July or October letters and you still 
haven't issued any recommendations.
    Then last year, e-mails were released from the University 
of East Anglia's Climate Research Unit that pointed to an 
upsetting record of group think where data was manipulated and 
withheld. Scientific journals were intimidated and reputations 
were attacked, all in the name of advancing political activism 
regarding climate change. Your reaction to these revelations 
has at least been consistent, and you showed this same reaction 
today, to dismiss all those that go against what this 
Administration is trying to promote. You proclaim that the 
contents of these e-mails, the actions of the scientists and 
the almost daily revelations of additional errors in IPCC 
claims have no effect on the underlying science. Admonishing 
the process and scientists at the same time that you defend 
their product is totally unreasonable. The science may not be 
affected by the recent revelations but right now we simply 
don't know. Clearly, scientists have been exaggerating their 
claims, hiding data, intimidating colleagues and manipulating 
the peer review process.
    The credibility of many of the scientists involved in this 
work is dying by death of a thousand cuts. Simply putting your 
head in the sand and ignoring a flawed process will not work. 
Also troubling is the Administration's habit of making 
arbitrary, uninformed political decisions before they actually 
look into an issue or develop alternative plans that are 
adequate. The decision to shut down Yucca Mountain arguably is 
the most scientifically studied plot of land on the earth 
without a plan for future waste. The decision to scuttle the 
Nation's human spaceflight program and cede your leadership in 
space without any details or alternative plans. The decision to 
break up the $14 billion NPOESS program with little more than 
talking points all show that this Administration is putting the 
cart before the horse on too many decisions. The American 
people deserve more than empty rhetoric when it comes to 
scientific integrity and they deserve more than the arrogance, 
ignorance and incompetence that it is showing when it comes to 
making these decisions.
    Doctor, I have a number of questions for the record and I 
would like to submit those, since my time is out, for a written 
response. I am just flabbergasted at just what is going on here 
with this because as a scientist, I want to know the answers. 
The American public deserve the answers, and we are not getting 
them. I think that this Administration is showing a tremendous 
amount of arrogance, ignorance and incompetence, and the 
American people deserve better.
    Mr. Chairman, I yield back.
    Chairman Gordon. Thank you, Dr. Broun. Your questions keep 
us all on our toes, so thank you for that.
    Dr. Holdren. Mr. Chairman, did you want me to respond?
    Chairman Gordon. Well, I didn't hear a question there, but 
you are welcome to respond.
    Dr. Holdren. I have a brief response to Congressman Broun. 
He won't be surprised to know that I don't agree with much of 
his characterization but I do agree that I owe him an apology 
for the appalling delay in responding to his letters, and the 
letter that I sent to him yesterday was only a response to his 
December 1st letter. The response to his earlier ones is in the 
review process now and I hope you will get it in the next few 
days. There is no excuse for a delay of that magnitude. There 
are some explanations but there is no excuse, the explanations 
having to do with your first set of questions, having largely 
had to do with the guidelines that I have been obligated to 
produce under the President's memorandum of March 9th, and I 
had hoped to complete those guidelines before responding to 
your letter so that I could respond in full with the specifics 
of how we were going to address this array of questions going 
forward. It finally became apparent that the difficulties of 
constructing a set of guidelines that would be applicable 
across all the agencies and accepted by all concerned were 
going to cause further delay, and at that point I realized I 
just needed to answer as best I could the questions as you 
posed them. I do very much regret that delay and I agree that 
it is not acceptable.
    The rest of your characterizations of the state of climate 
science and the Administration's decisions of course I don't 
agree with but we can perhaps deal with that offline and in the 
questions for the record. Thank you, sir.
    Mr. Hall. Will the gentleman yield? I will ask a question 
the doctor wouldn't ask. Are you going to answer him this year?
    Dr. Holdren. Again, the answer--the set of answers to his 
most recent letter, which was December, were communicated to 
Congressman Broun yesterday. I expect the answers to the 
earlier letters will be communicated to him within the week.
    Mr. Hall. I was just being polite with you.
    Mr. Broun. Mr. Chairman, if I may?
    Chairman Gordon. Certainly, Dr. Broun.
    Mr. Broun. Dr. Holdren, I accept your apology and I 
appreciate that.
    Chairman Gordon. Thank you.
    Mr. Broun. When in the Marine Corps, I was taught excuses--
there is no room for excuses, and I do accept your apology and 
I expect hopefully a rapid response from you, and I appreciate 
your saying so in a very public forum. I would like to work 
with you. As a scientist, I want to see scientific integrity. 
We need to know the answers. I happen to fall on the side where 
some of these things that the Administration is pursuing in 
policy, I fall on the other side from the Administration. But 
as a scientist, I do want to know the answer, and I hope that 
we can work together and we can work in concert to try to find 
some scientific integrity so the American people can get the 
answers that they desperately need.
    Science cannot make policy but science can help us develop 
the proper policy. When I was in medical school, things that I 
was taught as being absolutely scientifically true five years 
later were proven to be false, and we are teaching something 
exactly opposite. So science is not a static thing or entity, 
and we need to use the best science to try to help policymakers 
develop the best policy for the American people, and I am eager 
to do that, even if my personal biases today--I am open to the 
scientific process but scientific integrity is absolutely 
critical, and I don't see that from this Administration, 
frankly, and I hope that we can work together and I do accept 
your apology. Thank you, sir, and I yield back.
    Chairman Gordon. Thank you, Dr. Broun. I know you are 
sincere in your questions and you deserve an answer, and I am 
sure that you and Dr. Holdren are going to become pen pals.
    And so Mr. Lipinski is recognized.
    Mr. Lipinski. Thank you, Mr. Chairman. I want to thank Dr. 
Holdren for all of his work and the work of the Administration. 
You know that--I am sure you know we are working right now on 
NSF reauthorization. I was very happy to see that the 
Administration has recommended an eight percent increase in NSF 
funding, so I want to thank you for that recommendation.
    One thing I wanted to focus on is the infrastructure that 
we have right now for doing research in this country because I 
think it is critical for our competitiveness, and of course NSF 
reauthorization is going to be incorporated in reauthorization 
of the America COMPETES Act, which is critical for our Nation. 
The most recent NSF survey of science and engineering research 
facilities found that academic institutions were deferring 
about $3.5 billion in needed renovation projects. From my 
experiences touring DOE facilities, I am concerned that there 
is also a backlog there of needed infrastructure. In the 
Recovery and Reinvestment Act, I was happy that the 
Administration and Congress put in there $200 million for ARI, 
Academic Research Infrastructure. Obviously that $200 million 
is not going to go too far towards a $3.5 billion backlog. I 
was wondering, the first part is, what the Administration, what 
you are doing looking at the backlog of infrastructure needs at 
our academic institutions and at our labs, and also just 
yesterday we had in my Research and Science Education 
Subcommittee a hearing on whether or not we should reinstitute 
the Academic Research Infrastructure program or find another 
way of funding the backlog at academic institutions. So it is a 
two-part question. First, is there a--what is the 
Administration doing looking at the backlog at both academic 
institutions, DOE labs and infrastructure, and second, are 
there any plans the Administration has for moving forward to 
address this backlog?
    Dr. Holdren. Thank you for that question, and I think it is 
a tough one because in my view, in this country, we have been 
underinvesting in the maintenance and the renovation of our 
infrastructure for a long time across a wide range of issues. 
We have done it in the communications sector, the energy 
sector, the transport sector and the science and technology 
sector including in our universities and our national labs. 
This is not a problem--this underinvestment in infrastructure 
is not just a problem in the domain you mentioned, and I am not 
smart enough to know what the solution is across the board. I 
am hoping that some of my colleagues in the Administration may 
have some good ideas about that.
    As far as the infrastructure for science and technology, 
the infrastructure for R&D, I have had a lot of university 
presidents in my office sharing their woes in that domain, and 
that is related to some very complicated questions including 
questions of overhead and where they can get the money to renew 
their facilities. I think we did make a contribution to 
addressing that problem as you mentioned, sir, in the Recovery 
Act where a fair amount of the science and technology money has 
gone into equipment and facilities at a wide variety of kinds 
of institutions, not just because it makes sense for its own 
sake but because that is one way to avoid the cliff where you 
have this big infusion of money and then it goes away. By 
investing in equipment and facilities, you have the benefit of 
that infusion of money stretching over a long period of time, 
but we haven't done nearly enough. It is on our radar screen, 
but I have to admit, we don't have a plan yet for addressing 
this in a systematic way, and that is something that I would 
certainly like to see happen going forward and I would love to 
work with you and this committee in figuring it out.
    Mr. Lipinski. Well, I look forward to working with you on 
that, and one other thing I wanted to bring up, in the 2007 
COMPETES Act, we required the OSTP to coordinate planning for 
national research infrastructure across agencies, and we have 
not yet gotten that plan, so I think that is also a key part of 
this and I am looking forward to seeing that hopefully soon and 
looking forward to working with you on this as we move forward.
    Dr. Holdren. Let me just say in brief response to the last 
question there that we have been resuscitating the National 
Science and Technology Council, which is the vehicle we have 
for coordinating analyses and collaborations across the 
agencies. It was not terribly active in the last 
Administration. It is becoming much more active now. We have 
the top people participating. We have got its various 
committees. The technology committee is being chaired by our 
CTO, Aneesh Chopra. And so we do have a mechanism functioning 
again to address that particular mandate, and we are going to 
do it.
    Chairman Gordon. Mr. Olson is recognized.
    Mr. Olson. Thank you very much, Mr. Chairman, and Dr. 
Holdren, thank you for coming today. Unfortunately, I am going 
to start out with an admonition and then I have got a couple of 
questions.
    One of the great things about this committee and U.S. human 
spaceflight is, there is no more bipartisan issue in the 
Congress than again U.S. human spaceflight, particularly with 
the current atmosphere we are living up here in Washington, and 
I want to specifically talk about a response you gave to 
Charles Krauthammer's issue criticizing the Administration's 
plan for human spaceflight, and you repeatedly referred to the 
Constellation program as George W. Bush's program. With all due 
respect, sir, it is not George W. Bush's program, it is 
America's Constellation program. It has been approved twice in 
authorization bills in this Congress, 2005, 2008, with 
different majorities in charge. The 2005 vote was 383 to 15. 
The 2008 authorization act was even a greater majority with the 
Democrats, 409 to 15. And we have got to be very careful. 
Again, one of the great strengths of human spaceflight, U.S. 
human spaceflight, is it's largely a nonpartisan issue, and if 
we turn it into a partisan issue, we are going to lose much 
more than what is at stake with the Administration's current 
proposal.
    Getting back to the Augustine report, it is very clear from 
your comments today, from what I have read in the media, from 
comments I have seen from Deputy Administrator Garber that the 
Administration puts great weight behind the recommendations of 
the Augustine Commission. One question I have is, there was a 
statement on the initial summary that came out from the 
Augustine Commission in September, and let me read this to you, 
and this is a quote: ``There is now a strong consensus in the 
United States that the next step in human spaceflight is to 
travel beyond low earth orbit,'' and yet as I review the 
Administration's budget proposal, it condemns us to low earth 
orbit with no plan to go beyond low earth orbit. And so if you 
have given such credence to other recommendations of the 
Augustine Commission, why don't we have a plan like the 
Constellation to get us beyond low earth orbit?
    Dr. Holdren. Thank you, Congressman. First of all, I agree 
with you that the space program has been and should remain a 
bipartisan effort, and it was certainly not my intention to 
undermine that in any way. I think it is something that 
Americans of all political persuasions should be able to agree 
about.
    With respect to the Augustine report, we agree with the 
proposition in the Augustine report that moving beyond low 
earth orbit is important. It is a goal that we are retaining. 
The question is how to do it, using what technologies, on what 
time scale, to what destinations. And the goal that we have is 
to take U.S. astronauts into deep space in a way that is safe, 
in a way that is affordable, in a way that gets them to an 
array of deep space destinations, not just a particular one at 
a particular moment.
    We believe, and the Augustine report supported this 
proposition, that the Constellation program as constructed and 
funded was not going to be a route that was sustainable for us 
to take to get U.S. astronaut into deep space. We think we have 
a better route to get there that invests much more extensively 
in advanced technology. We are certainly not giving up on deep 
space, and I would point out that Norm Augustine himself has 
endorsed the new plan. Many members of that Commission have 
written op-ed pieces or blogs or other statements indicating 
that they think within the constraints of budget the 
Administration's proposal has embraced a large proportion of 
the findings of the Augustine Commission.
    Mr. Olson. Thank you. You hit the nail on the head. It is 
within the constraints of the budget, and I feel very strongly 
that it is incumbent upon us here in Congress and the 
Administration to increase NASA's funding. I mean, the big 
problem has been, for the past 10 years, we have had this great 
vision, and I think going back to the moon is the proper vision 
for our human spaceflight at this time but we haven't been 
willing to give them the resources.
    I want talk to you, Dr. Holdren, just about how the process 
of this recommendation for human spaceflight came about. In the 
course of your discussions and debates for this proposal, did 
you meet with any of the current Constellation contractors and 
did you meet with anyone representing the private 
organizations, specifically SpaceX or Orbital, in putting 
together the Administration's proposal?
    Dr. Holdren. Well, first of all, the Augustine Committee 
had an extraordinarily interactive and public process. They had 
a large number of public meetings. They met with everybody you 
could imagine. The Augustine report contains an amazing list of 
all the folks that they met with. When we got the Augustine 
report, we then had a process within the White House but also 
involving of course NASA to talk about and to explore the 
different kinds of possibilities that could be constructed as 
different options for the President's consideration coming out 
of those findings and everything else that we had been able to 
learn about the space program, the options it faces going 
forward and so on. Certainly we heard from representatives of 
the private sector, big companies, little companies. We heard 
from just about everybody who has an interest in this matter.
    Chairman Gordon. Thank you. Mr. Olson, Administrator Bolden 
will be testifying before us soon, and I am sure we will have 
an opportunity to go into more depth, and I think following on 
that theme, Ms. Kosmas is recognized.
    Ms. Kosmas. Thank you, Mr. Chairman. Dr. Holdren, it is 
good to have you here and I appreciate your comments. As I have 
shared with you previously, you know that I am very concerned 
about the lack of specificity in the President's proposal for 
NASA, and this follows closely on the comments made by my 
colleague, Mr. Olson. I too feel that this is a very bipartisan 
issue and an extremely important one as we move into the 21st 
century for this Nation, to quote you, ``to continue America's 
leadership in science and in space''. Again, as the 
Representative for the Kennedy Space Center, I am particularly 
concerned that the budget has no concrete plans for a future 
exploration program. There is no goal outlined. There are no 
milestones for a program. There is no launch schedule. And this 
proposal basically leaves my constituents, which is a uniquely 
skilled and professional workforce, with no way to plan for the 
future. Under this plan, as you undoubtedly are aware, as many 
as 7,000 people will be laid off in my district. They will 
likely move away, and the loss of this workforce will cause, in 
my opinion, great devastation not only to the community but to 
our Nation's ambitions for space exploration.
    So my question to you is, can you tell me how the 
Administration proposes to avoid dispersing this workforce 
which is critical to our space program and the positive effects 
that the space program has on our national security, our 
economic viability and our scientific leadership?
    Dr. Holdren. Thank you, Congresswoman Kosmas. We have 
talked about this before, and I know that we have not yet 
provided enough detail, as much detail as you will want and the 
American people will want about this program but that is in 
process. As the Chairman mentioned, Administrator Bolden will 
be testifying here. He will have more detail. There will be 
more detail forthcoming as we develop and flesh out the options 
that have been identified in the new plan. But let me make a 
couple of points about your obviously very real and very valid 
concerns about the Kennedy Space Center.
    In the President's proposal, we do propose first of all to 
fly out the shuttle manifest, even if that includes moving into 
2011, which was not previously a done deal. You may say it is a 
no brainer but we agreed to do it, and that I think is terribly 
important that we fly out that manifest, we do it in a prudent 
and safe manner, and that of course will create for the period 
in which it lasts continuing activity at the Kennedy Space 
Center. We have proposed----
    Ms. Kosmas. And I thank you for confirming what Congress 
had already approved.
    Dr. Holdren. Indeed. We have proposed to extend the life of 
the International Space Station, which is going to mean more 
launches of U.S. astronauts, and we believe those launches are 
going to take place at a pace that will exceed what would have 
taken place under Constellation. That will be more activity at 
the Kennedy Space Center.
    Ms. Kosmas. And they will be launched by what vehicle?
    Dr. Holdren. I think there is a variety of possibilities 
for the vehicle that will do that. We are spinning up a variety 
of, and encouraging a variety of private contractors who have 
vehicles that they believe will be up to that task. As I 
mentioned before, the safety of those vehicles and their 
adequacy for that task will be examined and certified by NASA. 
But we have, I believe----
    Ms. Kosmas. But there is no notion for a NASA-led vehicle 
to transfer our astronauts to the Space Station?
    Dr. Holdren. Not at this time. At this time, as you know, 
we are dependent for launching into low earth orbit----
    Ms. Kosmas. And nothing has been developed----
    Dr. Holdren.--on the Russians.
    Ms. Kosmas.--by the private sector. In fact the private 
sector does not even have from NASA, at this point in time, 
what those safety specifications--what safety specifications 
will be required so----
    Dr. Holdren. But they will get it. NASA is working on those 
specifications and they will be communicated to the private 
sector, and we believe there is a good possibility that the 
private sector capability to put U.S. astronauts in low earth 
orbit will be available before Ares I would have been available 
to do the same thing.
    Ms. Kosmas. Let me restate my question. Do you have any 
specific plan that will help me to suggest, as the President 
did, that he will assist us in mitigating the job loss at 
Kennedy Space Center pending the expiration of the shuttle 
manifest?
    Dr. Holdren. Yes. I had actually not gotten to that item on 
the list but we do have plans to invest in the Kennedy Space 
Center to upgrade the facilities, to do long-overdue 
renovation, to expand its capacities because we think there are 
going to be more launches from Kennedy Space Center.
    Ms. Kosmas. Do you expect that those renovations will use 
the unique workforce that we now have doing the processing and 
launch preparation?
    Dr. Holdren. The renovations per se obviously will not, but 
as we pursue the various possibilities for testing new 
technologies, for developing new heavy lift capabilities, there 
will be continuing action at the Kennedy Space Center that will 
employ some of those people. There is no question that there 
were going to be job losses associated with winding down the 
shuttle program. That was a done deal before we ever came to 
office. But I think we have more ideas and more specifics 
forthcoming about how to at least mitigate some of those job 
losses that were in place before, and there will be more detail 
on that.
    Chairman Gordon. Thank you, Dr. Holdren. We will have 
additional hearings on this.
    Mr. Bilbray, I am sorry to start with you, but if you could 
try to hold your remarks to four minutes, then that way I think 
we could get everybody through.
    Mr. Bilbray. Okay. I have to get over to Toyota pretty 
soon.
    Doctor, let me first of all congratulate you and thank you 
for the use of terminology when asked about the data on climate 
change. I think, you know, robust is a respectable term that 
doesn't carry so much political weight but also leaves open the 
fact of healthy skepticism of any data, and I think that is 
reasonable. In fact, it is kind of interesting that the U.N. 
Council on Climate Change used the same term, robust, to 
basically say what was essential to address this issue in 
implementing certain programs, and my biggest observation after 
working over two decades on air pollution issues is the 
greatest threat to the credibility of the data is not necessary 
these e-mails and the scandal but the lack of commitment to the 
answers that we hear from the biggest proponents of the data in 
the political spectrum, basically crying that there is a major 
crisis but refusing to follow the guidance of scientists around 
the world on how to address those issues.
    But I will move on and say, as I go down this report, I am 
reminded of the fact that at the turn of the last century, the 
British Parliament outlawed the use of automobiles unless a 
pedestrian walked in front of that vehicle with a red flag, and 
the fact is that the political process almost outlawed that 
technology from being able to be used until technicians 
persuaded the politicians to back off and move the other way. 
And when I go down the list here and I am looking at all of 
this, my concern is, I do not see a scientific assessment of 
how government regulation, government oversight and government 
restrictions will keep all of this from being able to 
implemented along the line. I will give you one. I will go down 
the list. Will it take two years for this Committee to review 
the reprocessing of nuclear waste that France has been doing 
for over two decades?
    Dr. Holdren. I am not sure this is the forum for going into 
the details of the reprocessing issue but the French approach 
to reprocessing, in the judgment of Secretary Chu and in my 
judgment, would not make sense for the United States at this 
time. It does not significantly reduce the waste management 
burden. It increases cost, makes nuclear energy more complex.
    Mr. Bilbray. It is mostly the cost factor that is the 
biggest factor, though?
    Dr. Holdren. No, I think if we want nuclear energy to be 
expandable in this country, we want to make it as inexpensive 
as possible, as simple as possible, as safe as possible, as 
proliferation-resistant as possible, and as non-controversial 
as possible. Reprocessing using the current technology goes in 
the wrong direction on all those counts.
    Mr. Bilbray. Okay.
    Dr. Holdren. We need better reprocessing technologies. The 
Secretary and I agree on that as well.
    Mr. Bilbray. Because I am on short time, the proposed 
budget here retreats from natural gas use when in fact it is 
probably one of the most essential transition fuels until our 
biofuel technology goes in there. Is there any review at all 
being talked about in looking at government regulations 
restricting the use of natural gas in pedestrian vehicles? I 
drove one in 1990 and we still have regulations today and 
public utility commissions and building codes that specifically 
restrict the use of natural gas home dispensing to be able to 
replace the traditional gasoline when in fact we know this is 
probably one of the cleanest fuels readily accessible to the 
consumer today.
    Dr. Holdren. I don't see anything in this budget that 
retreats in any way from natural gas use. I think natural gas 
is a valuable resource. It is the cleanest burning of the 
fossil fuel resources. We could do much more with it. We have a 
lot of it. The private sector is going to do most of that. We 
don't need a lot of money in the federal R&D budget in order to 
deal with natural gas. The regulatory issues there, I have to 
say, are not my domain. If there are regulatory obstacles to 
using more natural gas, I would like to see them resolved.
    Mr. Bilbray. And I would like to see scientists stand 
forward and say that and get into it, and that is what is 
important.
    The Bush Administration bet the farm on every one of its 
renewable research facilities on ethanol. Is this 
Administration willing to basically give alternatives to 
ethanol the same standing across the board and retreat from 
this dead-end road of going to ethanol as somehow the magic 
fuel that I think scientists across the board have said is a 
dead-end road? Is there any possibility for the Administration 
to reverse those positions of the Bush Administration and allow 
the next generation of truly emission-reduced fuels to get into 
those research facilities with equity with what I call the 
`snake oil' called ethanol?
    Chairman Gordon. Could that be a yes or no?
    Dr. Holdren. Yes, we are interested in a wider array of 
biofuels, and will certainly support the pursuit of a wider 
array of biofuels as opposed to just ethanol.
    Mr. Bilbray. Doctor, thank you very much, and I just want 
to say again, we need to hear the scientists stand up and say 
when things--when regulations are standing in your way, or we 
will still be driving behind a guy with a red flag for the next 
20, 30 years while climate change and all these other crises 
continue to be talked about but action is never made legal to 
be implemented. Thank you very much.
    Chairman Gordon. Ms. Edwards is recognized.
    Ms. Edwards. Thank you, Mr. Chairman, and I thank you 
because I know that were are going to have some more time to go 
into the human spaceflight component of the budget and I, like 
many of my colleagues here on this Committee, have serious 
questions about the Administration's direction, vantage point 
and policy but I won't go into them today. Among those, though, 
are, you know, what the impact is on the U.S. preeminence in 
space exploration, whether we are really mirroring the 
trajectory of international agency capacity and human 
spaceflight development. They seem to be going up and we seem 
to be going in a different direction, and obviously the 
questions around workforce and safety. And so I look forward to 
exploring those questions in greater detail.
    I want to ask today, though, Dr. Holdren, about STEM 
education and particularly thank the leadership of our Chairman 
and Ms. Johnson on making sure that we really understand what 
is going on with STEM with our young girls, with our minority 
communities and in the reach of these programs, but I wonder if 
you could give us a little bit more detail about how the 
programs through the National Science Foundation, Department of 
Education and these things are coming together in a more 
coordinated fashion, with a real vision toward K-12 education 
because it does seem there are all of these different holes and 
pockets and not a level of coordination that is really needed 
at the local level in school systems to understand better how 
to successfully implement greater capacity in our STEM 
learning.
    Dr. Holdren. Thank you, Congresswoman. First of all, this 
is clearly a very tough problem. We have been talking about 
improving STEM education for decades. Progress has been 
frustratingly slow. If it were easy, we would have gotten it 
fixed a long time ago. It is hard, and it is hard in part 
because you need both bottom-up and top-down efforts of a 
variety of kinds to meet in the middle to cover the whole 
spectrum of things that need to be done. We are working much 
harder in this Administration than I think has previously been 
done to integrate these different components. The Domestic 
Policy Council, headed by Melody Barnes, is very much involved 
with this. Secretary Arne Duncan is very much involved in it. 
The NSF is involved in it. I am involved in it. And the 
President is involved in it. The First Lady is involved in it. 
We talk about this several times a week, of how to get these 
programs to work better together, to get the Race to the Top 
program and the Educate to Innovate program and the other 
initiatives that are being undertaken to reinforce each other 
so that we not only have better laboratories in every middle 
school and high school in the country, so that kids can learn 
science and engineering in a hands-on way rather than just 
being lectured at, but we also have the teachers who are 
trained to exploit those laboratory facilities in ways that 
kids really learn from them. A lot of things have to come 
together to make this work.
    I think they are starting to come together. Secretary 
Duncan and I have an op-ed piece coming out in The Hill next 
week about some of the stuff that we are doing together to make 
this happen. I would love to talk with you offline about it at 
greater length. This is one of the highest priorities of the 
President and I have to tell you that every event that we 
propose from OSTP for the President's participation that has 
STEM education in it, he says yes. He comes and does it. He 
interacts with the kids. He is excited about this stuff. He 
knows how important it is, and as a result, we are all 
determined to get it done.
    Ms. Edwards. Well, I would like to have an offline 
conversation about that because I do think it is a real 
challenge for our local school systems to understand how all of 
these puzzle pieces fit together so that there is success in 
STEM learning, not just for a handful. I mean, you know, in my 
district, you can go to any number of schools that are doing 
something right in individual schools but from a systemic 
standpoint, how is it that we get all of our children trained 
in the kind of way that they need to have skills to make them 
successful for this century? Lots more questions. Out of time. 
Thank you, Mr. Chairman.
    Chairman Gordon. Thank you. That is a very important issue.
    Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and let 
me just note that stem cell research is of course really 
important, and those of us--I have actually taken some hits for 
taking stands on this issue, which are contrary to some of my 
other party members, but let me just note that----
    Ms. Edwards. I just want to make sure, I am focused on STEM 
learning, not stem cell research.
    Mr. Rohrabacher. Oh, excuse me. I heard you talk about--I 
will talk about stem cell research then. What we have found, 
however, and because it leads into my basic question, in stem 
cell research we saw that issue being politicized on the Hill, 
which I believe it shouldn't have been, and I might say 
politicized by both sides of the spectrum. We also have seen 
something even more politicized on the Hill over the last 20 
years, and that this is the issue of global warming, and I 
noted that there are several quotes from you in the recent past 
where you talk about those who disagree with your position, 
disagree with this whole idea of the global warming phenomenon, 
you label them as deniers. I would hope that considering the 
revelations that we have had that has the evidence that has 
emerged showing mistakes, errors and, yes, outright fraud that 
took place in the IPCC reports, I would hope that you would 
watch your language in terms of just dismissing people who 
disagree with you on this issue.
    At this point I would submit for the record, Mr. Chairman, 
an article. This came out about the reversal of Dr. Phil Jones, 
who is one of the great global warming advocates who now 
suggests there has been no global warming since 1995 and has 
admitted that it is possible that there are earlier time 
periods of warming that would----
    Chairman Gordon. Without objection, it will be made part of 
the record.
    Mr. Rohrabacher.--with human activity as well as including 
for the record a list of 100 prominent scientists from around 
the world including heads of major universities science 
departments who think that the concept of global warming was 
never accurate.
    [The information follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    With that said, let me get on to a question about space and 
let me commend you and the Administration for being courageous 
enough to take a bold step in dealing with space issues. The 
fact is that Republicans love to talk about cutting down 
government waste but whenever it comes down to actually cutting 
something or redirecting resources away from government 
bureaucracy in the areas of space or defense, we end up not 
being on the side of the angels. I would suggest that your 
Administration has tried to take an honest approach to looking 
at what NASA is all about. The goal of NASA should not be 
maintaining the NASA science bureaucracy. We just spent $9 
billion on the Constellation project and have almost nothing to 
show for it, and there are about five or six other projects 
that we can say the same thing. We are talking about billions 
and billions of dollars with nothing to show for it. Well, I am 
pleased that this Administration is willing to stand up to the 
plate and try to challenge this and say well, let us see if the 
private sector can come up with some alternatives that will 
save us some money.
    Let me note that the Constellation wasn't our only way of 
getting into space. We have Atlas and we have Delta rocket 
systems that, if we challenge the private sector to use those 
rocket systems rather than spending billions and billions of 
dollars of developing a new government rocket system, it might 
be the cost-effective way of using those systems coupled with 
some new innovation from the private sector. And thank you very 
much, and I know I have used up my time, but maybe if you could 
just say yes or no.
    Chairman Gordon. I think he will say both.
    Dr. Holdren. On NASA, yes. On climate change, no.
    Chairman Gordon. Many thanks for the angelic Mr. 
Rohrabacher's, comments.
    And now we go to the patient Ms. Johnson.
    Ms. Johnson. Thank you very much, and thank you, Dr. 
Holdren, for being here. My frustration is the same as Dr. 
Broun's and Mr. Olson's on the integrity of research. The eight 
years that President Bush was in, there were constant 
complaints about the altering of reports in the office and 
everything else, so I think that hopefully we can get beyond 
the past mistrust, hopefully with a party label, and look very 
honestly at the scientific research and scientific integrity 
and know full well that as we do research, things do change, 
new knowledge is found, and so many of the things that we are 
doing will show that.
    I think I heard you say that the investment would be where 
you could get some results a little cheaper and quicker in the 
areas of funding. I am from Texas and I believe in NASA, but it 
is very expensive, and I know that. It has rendered probably 
the best results of any research we have had but that too can 
change and so we have to prepare our young people to look at 
something different. I am very concerned about whether or not 
we are putting the right emphasis and getting the right results 
from the STEM education. Because if we are not doing that, it 
won't make a whole lot of difference how much money we spend, 
because we still won't have the qualified people to make the 
best of the research. And I appreciate the fact that you and 
Secretary Duncan are working together because it is very, very 
much needed. And I hope that all of us will continue to 
question without being that hostile about--because of party 
labels, but because we need to know this knowledge for the 
future and we need to have an opportunity and the ability to 
continue to seek it. So I look forward to the article you are 
talking about but also I wanted you to comment just quickly on 
some of the things that you might be working with Secretary 
Duncan as relates to America COMPETES and the provisions that 
were made in that, research and preparation of instructors as 
well, because that is where I think our biggest weakness is.
    Dr. Holdren. Well, I can just say very quickly, I think you 
are absolutely right on all counts. I don't disagree with 
anything you have said, and your last comment about the 
preparation of instructors is absolutely crucial and we are 
making big investments and thinking about how to innovate in 
both incentivizing some of our brightest people to go into 
teaching and doing a better job of preparing them for teaching 
science and math and engineering and technology in our schools. 
So there is absolutely no disagreement there. I think we are 
together on the need. We are together on the goals, and I think 
we will find that we are together on a lot of the means.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Chairman Gordon. Thank you, Ms. Johnson.
    Ms. Fudge and then Mr. Tonko, and then we will have to 
conclude.
    Ms. Fudge. Thank you, Mr. Chairman, and thank you, Dr. 
Holdren.
    My first question really you don't need to answer today, 
but if you could get back to my office with it. I certainly 
understand that the President has pledged almost $4 billion for 
STEM education in the budget. My concern is with Race to the 
Top funding. What we continue to do, unfortunately, is to pick 
out a select few schools who have the resources to write 
grants, who have the resources to be involved, and we leave the 
masses of the children behind. I really do believe that every 
student deserves the opportunity to compete in STEM, and Race 
to the Top does not accomplish that. And so what I really want 
to know is how we can extend support to students from 
underserved areas so that they are given the same exposure and 
opportunity to develop their STEM skills. And in addition, I 
want to know if there is a plan at all to establish a 
clearinghouse for federal STEM programs because I have been 
trying to find one and I don't think a complete list exists.
    My question is, in my district, which is from--I represent 
Cleveland, Ohio, and northeast Ohio. Obviously we had a very 
strong manufacturing base, and it is a part of the region that 
has been significantly impacted by the decline of the auto 
industry. In your testimony, you cite a recent White House 
report called ``A Framework for Revitalizing American 
Manufacturing.'' One of the recommendations in this report is 
for better coordination of manufacturing R&D programs across 
the Federal Government through the National Science and 
Technology Council. What is the status of that interagency 
process? Could you give us some brief overview of the 
Administration's strategy and vision of how federal R&D 
investment should support American manufacturing and job 
creation?
    Dr. Holdren. Thank you. A quick answer on that, because I 
know time is limited. The National Science and Technology 
Council technology committee has been meeting on this. We have 
a committee of PCAST as well, the President's Committee of 
Advisors of Science and Technology, that the President has 
asked to look at manufacturing initiatives of a variety of 
kinds, and we are doing that. The folks across the 
Administration understand the priority. Larry Summers and the 
National Economic Council are very much involved in this, 
understand the priority on revitalizing manufacturing in this 
country and getting back into a leadership stance with respect 
to our capacity to manufacture cost-effectively, to develop new 
products. This is a major push in the Administration and there 
are lot of different folks involved I it, and again, I would 
love to get back to you with some of the details.
    Ms. Fudge. Okay. They are involved, but are they working 
across agencies?
    Dr. Holdren. Yes, we are working--I mean, that is what the 
NSTC is all about.
    Ms. Fudge. I know that is what it is supposed to be.
    Dr. Holdren. It is. We are doing it. The folks from the 
different agencies are coming, they are participating, they are 
communicating. They are starting to collaborate. We have a 
functioning NSTC again.
    Ms. Fudge. Thank you, Mr. Chairman. I yield back.
    Chairman Gordon. Mr. Tonko is recognized.
    Mr. Tonko. Thank you, Mr. Chair.
    Dr. Holdren, welcome. I was pleased that you were talking 
about linking innovation, entrepreneurship and job creation. 
You highlight NSF's Ecosystem program and EDA's efforts 
supporting regional innovation clusters. We know that DOE is 
supporting the creation of innovation hubs and clusters. Can 
you somehow explain how these initiatives complement each other 
and if there is any coordination or collaboration effort 
underway?
    Dr. Holdren. Again, I addressed that briefly before. The 
notion of innovation ecosystems is being pursued in concrete 
terms in this Energy Regional Innovation Cluster where we have 
seven different agencies working together, including the DOE, 
to build innovation clusters around the energy innovation hubs 
that the DOE has already been spinning up. The level of 
coordination there is very high. The level of interaction with 
the private sector is very high. I think I said before, I have 
never seen so much enthusiasm from private companies wanting to 
partner with the government in various ways to get innovation 
out into the marketplace again in this country. You know, we 
could give you a long laundry list of the things that are 
happening but there is a lot.
    Mr. Tonko. And another area with the regulatory barriers of 
demonstrating renewable energy technologies, can you suggest 
how we might facilitate the coordination between OSTP and DOE's 
research programs and other regulating agencies that have 
somewhat moved to the commercialization of our clean energy 
technologies, which I think is, you know, a very important 
linchpin to advancing a green energy agenda, clean energy 
economy.
    Dr. Holdren. It is an important linchpin, and OSTP and DOE 
and PCAST are all working very closely together on this. We 
have a PCAST panel set up on energy technology innovation, 
looking at how to move things from the R&D stage into 
commercialization. I happen to be an old friend of Steve Chu's. 
We worked together on many things long before either one of us 
was in government. We talk together several times a week. I am 
also and my staff are on very good terms with all the deputies 
over there so there is a very close working relationship 
between OSTP and DOE in this domain, and I think we are going 
to come up with some real innovation in how to advance this 
process of getting renewable energy out there into the 
marketplace.
    Mr. Tonko. And do you see that being--with a commitment 
from the funding that will require? Because I believe that it 
is going to take not only a huge investment, but coordination 
with the utility industry out there. When we look at some of 
the things being done across the globe, they are bringing about 
renewables because they are demanding that--you need a huge 
customer out there, I think, or a supplier, and I think our 
utility network needs to be part of that coordination.
    Dr. Holdren. They do need to be a part of it and you also 
need a transmission grid that can take renewable energy from 
the places where it is most abundant to the places where it is 
most needed, and we need to substantially increase investments 
in the grid as a general matter. We need a smarter grid to help 
get this done with an increasing renewables contribution in it, 
and we are focused on all of those issues. I agree with you 
about its importance, so does Secretary Chu. And I think the 
private sector is ready to work with us in getting some of 
these things done.
    Mr. Tonko. Thank you.
    Chairman Gordon. Dr. Holdren, that concludes our witnesses, 
and I want to again thank you for joining us today. I think the 
breadth of questions demonstrated that you have quite a broad 
portfolio, and that is one of the reasons that as I mentioned 
earlier, it is important for our country for you to succeed. We 
want to see you be successful for our future.
    The record will remain open for two weeks for additional 
statements from the Members and for answers to follow up any 
questions that the Committee may ask the witnesses. I am sure 
that you, as I say, and Mr. Broun will have the opportunity to 
have some discussions in the future, and again, we welcome you 
here. The witness is excused and the hearing is adjourned.
    [Whereupon, at 11:37 a.m., the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. John P. Holdren, Assistant to the President for 
        Science and Technology; Director of the White House Office of 
        Science and Technology Policy; Co-Chair of the President's 
        Council of Advisors on Science and Technology

Questions submitted by Representative Ralph M. Hall

Q1.  Your testimony re-asserts the goal President Obama announced last 
year to invest 3 percent of GDP on public and private R&D. However, 
while the budget projects that GDP will grow by 5.9 percent, the budget 
increase for R&D is just 0.2 percent, so the public R&D-to-GDP ratio 
actually declines with this budget. What exactly is the 
Administration's plan to achieve this goal, especially in light of the 
fact that its budget is going in the wrong direction?

A1. The 2011 Budget will make progress toward the President's goal by 
increasing Federal funding for R&D as a percentage of GDP for 
nondefense activities. The proposals for the conduct of non-defense R&D 
(basic and applied research, and development) in the 2011 Budget, 
combined with spending from past appropriations, will result in outlays 
(expenditures) of $66.6 billion ha FY 2011, compared to $60.9 billion 
in estimated nondefense R&D outlays in FY 2010. This 9.2 percent 
increase between FY 2010 and 2011 would exceed the 4.6 percent growth 
in GDP between FY 2010 and 2011 projected in the President's budget 
(see Budget of the US Government FY 2011 Historical Table 10.1). The 
Budget shows a decrease in total R&D outlays as a percentage of GDP due 
primarily to a decrease in DOD's development programs.

Q2.  In your testimony you highlight a number of different agencies 
that are engaged in research in the area of climate change. Do you have 
any estimate on the amount of Federal research money that is being 
devoted to research on climate change? Would this include the funding 
provided through the U.S. Global Change Research Program? Does all 
climate research funding come under that header?

A2. The 2011 Budget proposes $2.6 billion for research on climate 
change from 13 Federal departments and independent agencies, under the 
heading of the US Global Change Research Program (USGCRP). The USGCRP 
budget crosscut is intended to capture most of the Federal government's 
investments in climate research, with research related to the 
mitigation of greenhouse gases being tracked through the Climate Change 
Technology Program. OSTP is currently working with the USGCRP program 
office and the agencies to insure that all Federal climate change 
research investments are categorized as such.

Q3.  In 2008, the United States trade deficit in high technology 
products was $55.5 billion, up from $16.6 billion in 2002. The US trade 
balance in high technology products was last in surplus in 2001. A 
portion of this deficit is from US companies that manufacture overseas 
and bring the products back to the US. Even if we invest more in 
research and development programs and attract more professionals into 
high technology fields, how do we discourage companies from taking 
production outside the U.S.?

A3. The Obama Administration is taking steps to keep the industries of 
the future and associated jobs in the United States. The President's 
Strategy for American Innovation, announced in September 2009, provides 
a framework for understanding how R&D investments, STEM education 
policies, and supporting policies in other areas such as manufacturing, 
trade, and entrepreneurship work together to keep high technology 
industries in the United States. To highlight the importance of 
manufacturing within the strategy, in December 2009 the Administration 
released A Framework for Revitalizing American Manufacturing. This 
document (attached) is a strategy for keeping advanced manufacturing 
jobs and value in the United States, and lays out the policies the 
Administration intends to pursue. Within the R&D area, the policies 
include expanded research in the 2011 Budget on advanced manufacturing 
and nanomanufacturing.

Q4.  Your testimony states that the budget ``sustains the President's 
commitment to double the budgets of three key science agencies,'' 
including the DOE Office of Science. However, the Office of Science is 
increased by just 4.4 percent, after receiving only a two percent 
increase last year. Do you intend to double the budget for the Office 
of Science? If so, over how many years?

A4. The Budget maintains the President's commitment to double funding 
for key science agencies, including the Department of Energy's Office 
of Science. The 2011 Budget establishes a budget profile to achieve 
doubling from 2006 levels by 2017.

Q5.  The government has spent nearly 25 years and expended more than 
$10 billion on Yucca Mountain and it seems premature to allow the 
application to be withdrawn before there is any determination by the 
Nuclear Regulatory Commission as to whether it would be safe. And the 
Administration has repeatedly stated that it will be ``the most open, 
transparent Administration in history''. As such, can you assure us 
that your office will work with DOE to make sure all Yucca-related 
paperwork, materials and documentation are maintained and made 
available to Congress for proper review and consideration?

A5. DOE has committed in filings with the NRC Atomic Safety Licensing 
Board (ASLB) that, until there is a final non-appealable order 
dismissing the license application for a repository at Yucca Mountain, 
DOE will keep its Licensing Support Network (LSN) website compliant and 
accessible through the NRC's LSN portal. DOE is working with the 
National Archives and Records Administration to ensure the preservation 
of this material after the conclusion of the licensing proceeding. In 
addition, DOE is committed to preserving all documents and other 
materials of scientific value. OSTP will work with DOE to ensure that 
all materials are carefully reviewed for scientific value before 
anything is discarded.

Q6.  Promoting ``Green Jobs'' or ``Clean Energy Jobs'' is clearly a 
priority for the administration as reflected in this budget. However, a 
growing body of data indicates that these models are inefficient and 
highly expensive. An authoritative study by one of Spain's leading 
universities found that the average subsidy cost for each ``green job'' 
created in Spain was $800,000, and that Spain's creation of 50,000 
green jobs resulted in 110,000 lost jobs elsewhere in the country. A 
similar study in Germany found that wind and solar subsidization in 
Germany amounted to $244,000 per ``green job'' and added 7.5 percent to 
the cost of household electricity bills. If these reports are true, 
would you still support the policy of promoting ``green jobs'' instead 
of promoting job creation through the expansion of traditional energy 
resources? Are you aware of these studies and have you considered the 
concerns they raise in formulating your own green jobs agenda? Given 
the studies' conclusions that such subsidies hurt job creation and 
increase energy prices, will you consider estimating the potential for 
similar expensive and counterproductive impacts as a result of the 
Administration's green jobs agenda?

A6. Yes, we are familiar with the studies you cite. While we have 
concerns about the methodology used in these studies (e.g., see the 
August 2009 NREL response to the King Juan Carlos University report; 
reference below), the energy policies in question are substantially 
different from those of the U.S. Federal government. We have no plans, 
therefore, to conduct a cost-benefit analysis of the clean energy 
policies in Germany and Spain. We have, however, analyzed the potential 
benefits of clean energy investments in the Recovery Act, which is 
specifically intended to create jobs, including green jobs. The 
President's Council of Economic Advisors estimates that the 
approximately $90 billion of Recovery Act investments will save or 
create about 720,000 job-years by the end of 2012. Projects in the 
renewable energy generation and transmission, energy efficiency, and 
transit categories create the most jobs: approximately two-thirds of 
the job-years saved or created represent work on clean energy projects.
    The Administration remains committed to creating green jobs. Beyond 
the Recovery Act, the President's FY 2011 Budget expands by $5 billion 
our Advanced Energy Manufacturing Tax Credit; it substantially expands 
support for construction of new nuclear power plants by increasing loan 
guarantee authority for such projects by $36 billion; it provides$500 
million in credit subsidy to support $3 billion to $5 billion of loan 
guarantees for energy efficiency and renewable energy projects; it 
continues to support modernization of our electrical grid; and it helps 
foster the growth of wind and solar energy projects. Further, the 
President has set a goal of doubling our exports over the next five 
years and thereby supporting two million American jobs, many of which 
will be in clean energy industries. The transition from fossil fuels to 
clean energy will challenge both America's technical ingenuity and our 
political will. This challenge holds out tremendous possibilities not 
just for improving our health and the environment, but also for 
creating new, high-paying green jobs and driving the recovery of 
America's manufacturing economy.\1\
---------------------------------------------------------------------------
    \1\ Sources: NREL NREL/TP-6A2-46261, August 2009, NREL Response to 
the Report ``Study of the Effects on Employment of Public Aid to 
Renewable Energy Sources from King Juan Carlos University (Spain)'' 
http://www.nrel.gov/docs/fy09osti/46261.pdf.
    Council of Economic Advisors, Economic Report of the President, 
Feb. 2010. http://www.whitehouse.gov/administration/eop/cea/economic-
report-of-the-President.

Q7.  This is the second budget that the Administration has requested 
funding for the Regaining our ENERGY Science and Engineering Edge (RE-
ENERGYSE) program, an NSF and DOE collaboration to ``attract and 
educate future American scientists in the clean energy field.'' The FY 
11 request for this activity is $74 million. ($19 million for NSF and 
$55 million for DOE). Neither your testimony nor the DOE or NSF Budget 
books give detailed information on this program. Could you please give 
us specific details on RE-ENERGYSE, how it will work, and how this 
---------------------------------------------------------------------------
money will be spent?

A7. DOE and NSF 2011 Budget submissions provide detailed information on 
how this interagency effort will work and how funds will be spent. 
Attached are documents providing detailed information on the RE-
ENERGYSE program from the FY 2011 congressional budget justifications 
of NSF and DOE.

Q8.  In your testimony you state that the three agencies involved in 
NPOESS (NASA, NOAA and DOD) announced that they are no longer jointly 
participating in the NPOESS program.

Q8a.  Was this decision made by the agencies or was it made by your 
office with input from the agencies?

A8,8a. My testimony stated that the Administration is restructuring the 
process by which the three agencies collaborate to implement the 
Nation's polar-orbiting environmental satellite program. In fact, all 
three agencies are still involved in some aspect of developing a next 
generation polar-orbiting environmental satellite system. The February 
1, 2010 decision was made by the leaders of the relevant offices in the 
Executive Office of the President (EOP), specifically by me, the OMB 
Director, and the National Security Advisor., after an intensive 
interagency process involving an EOP Task Force and top officials and 
supporting staff from NASA, NOAA, and DOD.

Q8b.  There was very little information accompanying the announcement 
on the dissolution of the NPOESS tri-agency program.

        i.  Was an estimate done on what it would cost to keep the 
        program together, but move the whole thing (procurement, 
        management, etc.) to either DOD or NASA? Was this estimate 
        compared to the cost of separate programs? Please provide the 
        Committee with the costs estimates of the options considered 
        and reasons for taking the path you chose versus the others.

A8b,i. The EOP-led process analyzed cost-estimates for various options, 
including continuation of the program under the current IPO structure, 
as well as moving the management function for the program to either the 
Air Force Space and Missile Systems Center (SMC) or to NASA's Goddard 
Space Flight Center (GSFC). But I should stress that throughout the 
process, the Task Force recognized that cost should not be the sole 
driver in decision-making. The ultimate goal was to position the 
program for success in order to ensure continuity of the Nation's 
weather forecasting and climate monitoring needs, by improving the 
governance structure of the program and aligning the program with 
proven acquisition center capabilities.
---------------------------------------------------------------------------
     Treasury Secretary Timothy F. Geithner.
     Written Testimony before the House Budget Committee, February 24, 
2010.
     http://www.ustreas.gov/press/releases/tg56l.htm.
---------------------------------------------------------------------------
    When the Task Force began the analysis of the NPOESS program in 
August of 2009, the official life-cycle cost estimate was $13.9B. The 
DOD estimates presented in October 2009 for the NPOESS program of 
record showed an increase of that figure to $15.1B, while the NPOESS 
Integrated Program Office (IPO) provided a revised cost-estimate of 
$16. 5B in November 2009. NASA had also previously performed various 
cost-estimates for the NPOESS program of record, but these estimates 
assumed that the program had been conducted within NASA from the 
beginning, and thus were not comparable to the official cost estimates. 
NASA's various estimates performed'' at both the 70 % and 80% 
confidence level for the full life-cycle cost, based on parametric 
analysis (in effect, cost curves for different types of equipment), 
were between $17B and $19B or more, depending on the assumptions made 
about the maturity level of the various sensors. The agencies use 
differing cost methodologies and risk tolerance levels, which results 
in differing conclusions of the agencies on costs of the NPOESS program 
at given point in time. However, the agencies all agreed, and the Task 
Force concurred, that the life-cycle cost of the program would exceed 
the current official estimate of $13.9B.
    The fact that the cost estimates were continuing to increase, as 
well as the lack of consensus between the agencies on which was the 
appropriate estimate to use, all reflected a fundamental problem with 
the program--namely, divergent views between the agencies as to the 
overall requirements of the program as well as the underlying needs. 
The inability of the agencies to compromise on this basic matter 
highlighted a further conclusion of the Task Force--that over time, the 
goals of the agencies associated with the program had drifted apart 
significantly. The risk of further escalating cost, on a program with 
approximately $5B invested through FY 2009 (and which was originally 
estimated to cost $7.0B in 2002), was notable and concerning.

        ii.  How is the tri-agency program going to be dissolved?

Aii. Direction to restructure was transmitted from EOP, through the 
Under Secretary of Defense for Acquisition, Technology, and Logistics 
to the Program Executive Officer (PEO) for Environmental Sensing and 
the NPOESS Integrated Program Office (IPO) through a DOD Acquisition 
Decision Memorandum. With receipt of the formal direction, the FPO has 
begun restructure and transition discussions and activities with the 
agencies, including disposition of the current contracted and 
government efforts. The three agencies (DOD, NOAA and NASA) have formed 
a transition team to plan and implement the transition of NPOESS into 
the NOAA Joint Polar Satellite System. (JPSS) program and future DOD 
polar-orbiting programs. Efforts from the NPOESS program applicable to 
either NOAA or DOD follow-on programs will be transitioned to those 
programs as they ramp up. Current government staff positions will be 
adjudicated by the agency from which they originate.

        iii.  Will DOD still utilize the sensors that were developed as 
        part of its commitment to NPOESS, specifically the Microwave 
        Image Sounder, on future satellites?

Aiii. The Air Force is evaluating the full suite of sensors, including 
the Microwave Imager/Sounder (MIS) and Space Environmental Monitor for 
NPOESS (SEM-N), for use on the follow-on program. Current program funds 
will be used to continue both the MIS and SEM-N efforts in FY 2010 to 
their next major development milestone while DOD completes a thorough 
requirements review and an Analysis of Alternatives (AoA) that will 
inform the follow-on platform decision. Regardless of the outcome of 
the review and AoA, DOD will have access to the data from the sensors 
that NOAA's Joint Polar Satellite System (JPSS) will fly in the 
afternoon orbit, as well as the data that NOAA is seeking to access 
from the Japanese Aerospace Exploration Agency's Global Change 
Observation Mission (GCOM) to fulfill requirements that MIS would have 
met for the afternoon orbit.

        iv.  DOD has enough legacy satellites to get them to 2020, 
        possibly even 2025. Will they just go back to the drawing board 
        for the next series of satellites to fly in the early morning 
        orbit? Or will they continue using the NPOESS platform as the 
        basis of any new satellite program?

Aiv. DOD is planning a thorough requirements review and will follow 
that with an AoA that will inform the follow-on platoon decision. In 
the meantime, DOD is also examining other ways to fulfill their 
requirements, including continuing with the current contractor team. 
DOD's global mission requires that it have access to polar-orbiting 
data from all three orbits: early morning, mid-morning and afternoon. 
Although DOD has remaining legacy satellites for the early morning 
orbit, DOD still has data requirements that will have to be fulfilled 
by receiving data from the European mid-morning orbit and the NOAA 
early afternoon orbit.

        v.  How does splitting the program up reduce the risk? What is 
        the current risk of project failure?

Av. Although there is the potential for some near-term delays due to 
the restructuring efforts, the improved management structure of JPSS 
program will enable the program to proceed forward in the mid-to-long 
term in a more effective and efficient manner. The risks of the 
restructure should be compared with the potential risks of continuing 
along the path of the status quo. The NPOESS program encountered 
significant schedule slips and cost increases throughout its history. 
Delays in instrument development for NPP caused the launch of that 
satellite to be delayed six years from the initial program baseline. 
Cost and schedule growth for the VIIRS sensor caused similar delays in 
development of the spacecraft for the first NPOESS satellite.
    The inability of the NPOESS tri-agency governance structure to deal 
with the program's cost and schedule growth was the source of much of 
the past difficulties. Maintaining this structure would likely have 
continued the history of schedule slips and cost increases. Although it 
would be difficult to quantify this risk, the past history of the 
program is indicative. The program restructure reduces the risk by 
clarifying acquisition authoritiesand making a single agency 
responsible for each orbit. The restructure also allows each agency to 
manage its program within that agency's existing culture and 
environment. The newly restructured program will have greater 
government control over the development process. For example, NOAA will 
be able, with NASA as its acquisition agent, to have greater control 
over setting the pace of work that is required to develop the 
instruments as well as the space and ground segments for the afternoon 
orbit. The restructured program also provides clear accountability, 
responsibility, and authority for each orbit, simplifying the 
complicated tri-agency decision processes that plagued NPOESS. In 
response to recommendations of the Independent Review Team (IRT), the 
restructure also provides infrastructure from acquisition centers that 
will support each acquisition with a deep bench of technical and 
program personnel and rigorous, documented processes.
    The ability to recover lost schedule and rebuild critical spares 
program will not occur overnight. The program will take some years to 
restore the robustness of the nation's polar satellite missions. The 
ability to use different-sized spacecraft as well as international and 
commercial platforms will provide some flexibility to achieve improved 
continuity of observation, however.

Q9.  It is my understanding the DOD and NOAA will still utilize the new 
joint ground system, that the information will come in together. How 
useful will this be if DOD maintains legacy instruments? Is there a 
concern that we will only really be able to utilize legacy-level 
information from the new NOAA satellite since it has to be integrated 
with the DOD legacy information? If so, wouldn't this make the entire 
upgrade a waste of money?

A9. The NPOESS-designed ground system is well suited to incorporate 
legacy systems, if this is desired by the DOD in the future. NOAA will 
continue to support development of the new sensors and the information 
and products they will provide. Today's systems are unique and 
independent designs. The new ground system offers the agencies the 
opportunity to make operations more efficient by transitioning to a 
single enterprise solution for multiple satellites. For a period of 
time, NOAA and DOD will work to transition use of the new NPOESS/JPSS 
ground network by both legacy systems until the JPSS satellites and the 
future DOD satellites are in place.
    Current DOD Defense Meteorological Satellite Program (DMSP) and 
NOAA Polar -orbiting Operational Environmental Satellite (POES) 
satellites are operated by NOAA's Office of Satellite Operations, which 
can continue to support legacy sensors. This office has provided the 
command, control, and communication for DMSP spacecraft from Suitland, 
Maryland since 1998 with Schriever Air Force Base in Colorado providing 
back-up support. NOAA and DOD have had a long history of sharing data 
fully and openly for weather, space weather forecasting, and climate 
monitoring while operating separate polar-orbiting satellite systems 
(i.e. POES and DMSP). NOAA will continue to operate the DMSP and future 
DOD environmental satellite platforms in the morning orbit under the 
restructured NPOESS program.

Q10.  DOD is currently responsible for 50 percent of the cost of the 
tri-agency program. Now that NOAA is going its own way, is it taking 
full responsibility for the cost of the ground system for which DOD 
would then pay NOAA to operate their half? Doesn't this put a greater 
burden on NOAA's budget if they are now responsible for all of the 
installed costs of the ground system, whereas before, they would only 
be responsible for half?

A10. The President's FY 2011 budget provides adequate resources in 
NOAA's budget to support NOAA's efforts for complete development of the 
ground system, which will be used by DOD and NOAA for both the morning 
and afternoon orbits. NOAA believes the challenges that remain to field 
and deploy the ground system are manageable.
    Under the JPSS program, NOAA would need to have a ground system in 
place to support JPSS-1 and JPSS-2. Given the expected 2015 launch of 
JPSS-1, it is more cost-effective for NOAA to take the lead to continue 
development of the NPOESS ground system for its JPSS program. In fact, 
significant progress on the ground system has occurred at the NOAA 
Satellite Operations Facility (NSOF) where command and control of the 
JPSS satellites will occur. Similarly, the network of SafetyNet sites 
that would support the acquisition of data from JPSS satellites has 
been identified and NOAA would gain more from leveraging that work 
instead of starting from scratch. With respect to providing data to DOD 
from the JPSS ground system, the technological adapters that would be 
required to do so would be relatively inexpensive to undertake.

Q11.  Will the contract with Northrop Grumman be dissolved? How much 
will it cost the taxpayers for the termination of the contract?

A11. The NPOESS transition team is currently considering how to proceed 
with the existing NPOESS contracts into the future. While termination 
is an option, NASA and NOAA are taking initial steps to remove 
responsibility for the development of the instruments and the ground 
system from the Northrop Grumman Aerospace Systems (NGAS) contract. The 
exact timing of these descopes will be determined by the transition 
team. Use of an NGAS provided spacecraft bus is still being studied by 
both DOD and NOAA/NASA.

A11. By DOD policy, the NPOESS program must obligate termination 
liability on contract each fiscal year. It is possible some termination 
and settlement costs can carry into FY 2012. The cost is under current 
review by DOD, and one-half of these costs would be NOAA's 
responsibility. Negotiations regarding the contract will be led by DOD 
on behalf of the government. Termination and settlement costs are also 
highly dependent on the decision-making of the transition teams. These 
activities are extremely acquisition sensitive, and it is premature to 
discuss the terms of the changing of the contract until the transition 
team has completed its assessment of next steps.

Q12.  Do you have a plan in place to fix the many problems in the 
current program in the event that Congress rejects your recommendation 
to split the project and chooses to fund the program in the same manner 
as currently funded?

A12. During the EOP Task Force deliberations, the agencies identified a 
number of critical steps that would be necessary to strengthen the 
current PEO and IPO organizations as well as underlying agency support 
to improve the likelihood of success, if such a route were taken. These 
steps have not been pursued in light of the final EOP decision to 
conduct separate acquisitions.
    The Administration believes it was in the best interest of U.S. 
taxpayers to restructure the NPOESS program. The decision is supported 
by the long history of reviews called for by House and Senate 
Authorizers and Appropriators and completed by the Government 
Accountability Office (GAO), as well as other reviews completed by the 
Department of Commerce Inspector General as well as senior-level 
independent reviews of the program.

Questions submitted by Representative Vernon J. Ehlers

Q1.  Overall, the education directorate (EJIR) at NSF receives a 2.2% 
increase in the FY 11. This is in contrast to an 8% requested increase 
to the research directorates. Why is there such a difference?

A1. The 2011 Budget proposes a substantial increase for NSF STEM 
education programs within a nonsecurity discretionary budget that is 
flat with 2010 enacted funding levels. The 2011 Budget proposes a 4.5 
percent increase for STEM programs across NSF, as counted within NSF's 
``learning'' strategic plan goal. A 4.5 percent increase is substantial 
compared to overall growth in nonsecurity discretionary programs in the 
Budget. The fact that the total NSF budget increases at 8.0 percent is 
indicative of the President's strong support for basic research as a 
key element for long-term economic growth. The 2.2 percent increase 
applies only to NSF's Education and Human Resources Directorate, which 
accounts for most but not all of NSF's STEM education funding.

Q2.  More specifically, NSF K-12 Education Research programs are 
essentially flat funded, except for work focused on implementation. 
Where is the Administration funding ongoing research in how K-12 
students learn and how K-12 teachers teach? The response that NSF is 
funding more education agency-wide is not acceptable; while I 
appreciate that the research directorates are working more effectively 
at incorporating education into the research mission, this should have 
always been the case. And for the most part, the education supported 
through the research directorates is NOT research into STEM education, 
but education on STEM research. Continuing to provide this response to 
the discrepancy between the RRA and EHR budgets indicates a sense of 
ignorance about the different types of research the NSF conducts and I 
would appreciate a more substantive response.

A2. The Department of Education's Institute of Education Sciences (IES) 
is the Federal government's primary engine for research on how students 
learn and how teachers teach. The 2011 Budget requests $739 million for 
IES, an increase of $80 million or 12 percent over the 2010 enacted 
funding level. Within IES, the Administration requests $260.7 million 
for research, development, and dissemination, an increase of $60.5 
million over the 2010 appropriation. The requested increase would be 
used to support new research activities in early childhood, elementary 
and secondary, and postsecondary education; evaluations of Recovery Act 
programs; and an impact study of professional development in 
mathematics for elementary school teachers, to be conducted in 
collaboration with the National Science Foundation. The request for 
2011 would also support ongoing programs of research and development in 
mathematics and science education, mathematics and science education 
for students with disabilities, teacher quality in mathematics and 
science education, and learning and cognition. IES supports national 
research and development centers on validating measures of effective 
math teaching and cognition and science instruction. It is worth noting 
that as part of the Administration's government-wide initiative to 
strengthen program evaluation, the IES request also includes 
significant new resources for the evaluation of education reform 
efforts under the American Recovery and Reinvestment Act and efforts to 
improve Science, Technology, Engineering. and Mathematics (STEM) 
education. IES communicates research findings to parents, educators, 
and policymakers through its technical assistance and dissemination 
network, which includes the Regional Educational Laboratories, the What 
Works Clearinghouse, the Education Resources Information Center, and 
the National Library of Education. For example, the What Works 
Clearinghouse has published reports on the evidence of effectiveness of 
education interventions in elementary school mathematics and middle 
school mathematics and has also published practice guides with 
practical recommendations for educators on assisting students who are 
struggling with mathematics and encouraging girls in mathematics and 
science courses. These and other What Works Clearinghouse reports are 
available on the IES website (http://ies.ed.gov/ncee/wwc/). The request 
for 2011 would provide nearly $90 million to continue support for these 
activities.

Questions submitted by Representative Brian P. Bilbray

Q1.  Can you talk about where OSTP comes down on the issue of having 
research agencies dedicate a certain percentage of their budgets--8% 
has been suggested--to high risk, high impact research that is 
potentially transformative, and could contribute substantially to our 
national capacity for innovation? Just this past weekend, I 
(Congressman Bilbray) hosted a meeting of leaders from the San Diego 
research community and NIH Director Collins, and this issue was a topic 
of discussion. What Director Collins and I heard from this group of 
academic and business leaders is that there is a tendency for peer 
review to drive agencies in an overly conservative direction in terms 
of their funding decisions, particularly in times of great budget 
pressures such as these.

A1. I share your concerns about the sometimes conservative nature of 
peer review, and I agree strongly that research funding agencies should 
emphasize the support of potentially transformative or high-risk/high-
impact research. Over the past year, OSTP has made support of such 
research a high priority and has worked with agencies to ensure that 
such research is funded. As one example, the R&D Priorities Memo issued 
jointly by OSTP and the Office of Management and Budget (OMB) in August 
2009 articulating interagency priorities for the Federal R&D investment 
prominently emphasizes `high-risk, high-payoff research' as a top 
priority for the 2011 Budget. But I do not believe a percentage target 
is the best approach for encouraging such research. One reason is that 
a single percentage target is unlikely to fit the diversity of Federal 
research funding agencies. Another reason is that a percentage target 
for high-risk, high-impact research risks segregating such research 
from the rest of an agency's research portfolio and also risks making 
the remaining 92 percent or so of the portfolio more conservative. We 
do not want transformative research walled off from other research, but 
instead prefer the approach of encouraging agencies to think about 
making all of their research more transformative in appropriate and 
creative ways.
    I strongly believe that consistent science funding is part of the 
solution to our current economic difficulties. Unfortunately, our 
government's ``peak and valley'' pattern of scientific funding is 
disruptive to the flow of the scientific process if funding levels are 
flying high one year only to be followed the next year with a crash 
landing. If we are truly to harness the best that our researches have 
to offer we must settle on consistent funding levels that are fiscally 
responsible, prudent and scientifically sound. Please elaborate on how 
the President's budget request will help reduce the impact of the 
``peak and valley'' funding pattern we've been experiencing recently.
    I share your belief that consistent science funding is important. 
The President's 2011 Budget builds on investments in the Recovery Act, 
2009 appropriations, and 2010 appropriations to sustain increases for 
key research agencies. These sustained increases build on four 
practical challenges for the Federal R&D investment that have 
consistently guided the Obama Administration's R&D investment 
strategies: applying science and technology strategies to drive 
economic recovery, job creation, and economic growth; promoting 
innovative energy technologies to reduce energy imports and mitigate 
the impact of climate change while creating green jobs and new 
businesses; applying biomedical science and information technology to 
help Americans live longer, healthier lives while reducing health care 
costs; and assuring we have the technologies needed to protect our 
troops, citizens, and national interests, including those needed to 
verify arms control and nonproliferation agreements essential to our 
security. The 2011 Budget also carries forward the President's Plan for 
Science and Innovation, announced by the President in April 2009, to 
double the budgets of three key science agencies. The 2011 Budget lays 
out a consistent, smooth path to doubling the budgets of the National 
Science Foundation, the DOE Office of Science, and the National 
Institute of Standards and Technology laboratories by 2017.

Questions submitted by Representative Baron P. Hill

    In 2005, President George W. Bush signed Executive Order 13385 
which assigned the role and responsibilities of the President's 
Information Technology Advisory Committee (PITAC) to the President's 
Council of Advisors on Science and Technology (PCAST). Prior to 
Executive Order 13385, PITAC provided a focused and credible evaluation 
of the funding, coordination, and implementation of federal high-
performance computing (HPC) activities which PCAST, because of its 
broad and comprehensive mission, cannot be expected to fulfill. The 
elimination of PITAC has left a tremendous void in the advanced 
networking and information technology community and threatens to 
jeopardize US leadership in these fields.

Q1.  Dr. Holdren--as the leader of PCAST, please comment on how 
effectively that panel has been able to take over the responsibilities 
previously held by PITAC since 2005. How do you respond to concerns 
from the HPC community that the lack of a focused and credible voice on 
these issues may jeopardize our leadership in these areas?

A1. The current PCAST, assembled in 2009, includes members who are 
highly regarded within HPC communities, notably Eric Schmidt, David 
Shaw, William Press, and Craig Mundie. PCAST is cognizant of its PITAC 
responsibilities, and with the. President's approval assigned Eric 
Schmidt and Shirley Ann Jackson, immediately following the PCAST's 
inception, to serve as PITAC Co-Chairs.
    PCAST and PITAC are committed to engaging and collaborating with 
the IT community (of which HPC is a part) to improve the breadth of 
expertise underlying recommendations to the President. PCAST recognizes 
that it lacks some expertise required to perform the totality of its 
functions, and has compensated for those gaps by assembling working 
groups with high degrees of expertise specific to the tasks at hand. 
For example, for the recent PCAST review of the National Nanotechnology 
Initiative, PCAST assembled a working group consisting of 12 non-PCAST 
members and three PCAST members to conduct the review, and invited an 
additional 37 nanotechnology experts to testify at its working group 
meetings.
    A number of other PCAST efforts currently underway, such as the 
Health Information Technology and Advanced Manufacturing studies and 
the review of the Networking and Information Technology Research and 
Development program, also involve HPC-related components and are 
informed by members of the HPC communities in a variety of ways.
    In addition, PITAC co-chairs plan to convene events where the IT 
community will be invited to attend and asked to identify additional 
areas for attention by PITAC. PITAC will then assemble working groups 
with input and representation from the IT community to address these 
issues.

Q2.  Section 7024 of America COMPETES authorizes the establishment of 
an HPC advisory committee. Does OSTP support such an action and, if so, 
what has your office clone in this regard so far and what further 
actions are expected over the next six months?

A2. The PCAST mechanism described in the answer to the question 
immediately above will be used to provide the HPC advisory committee 
functions established in the America COMPETES Act (Public Law 110-69), 
the High Performance Computing Act of 1991 (Public Law 102-194), and 
the Next Generation Internet Act of 1998 (Public Law 105-305). As part 
of its work in this domain, PCAST will review the Networking and 
Information Technology Research and Development (NITRD) program, 
including the elements set forth in the legislation above, and will 
report on its findings and recommendations.

Questions submitted by Representative Gary C. Peters

Q1.  Dr. Holdren, the Manufacturing Extension Partnership is a program 
that is very important to me, and I know from companies in my district 
just how vital MEP support is to the long term success and 
competitiveness of small and medium sized American manufacturers. I 
think preserving and strengthening this program should be a top 
priority as we discuss job creation or economic recovery strategies. 
The administration has shown a lot of interest in supporting 
manufacturing and promoting manufacturing jobs, and President Obama's 
framework for revitalizing manufacturing discusses doubling the MEP 
program over the next five years. Can you expand further on the 
Administration's vision for the future of MEP? What changes do you 
envision for MEP if the program follows this course of expansion?

A2. For the past two decades, MEP has helped thousands of small and 
mid-sized companies improve their competitiveness through various 
programs such as lean manufacturing, six-sigma quality, etc. This has 
resulted in considerable cost savings and quality improvements. 
Recognizing the merits of the MEP program, President Obama has proposed 
to --increase the budget to $180 million by 2015. As part of this 
commitment, $130 million was allocated to MEP in the President's 2011 
budget to enhance the competitiveness of the Nation's manufacturers by 
facilitating the adoption of more efficient manufacturing processes. 
With its thousands of agents or ``boots on the ground'' spread across 
the nation, MEP is in a position to understand the pulse of the 
industry. We envision that it will respond quickly with new, 
innovative, and effective programs to keep our manufacturing base 
competitive. Such programs may involve implementation of best practices 
in any number of areas including sustainable manufacturing--from 
reducing waste in the manufacturing process to developing new, 
environmentally-focused products and workforce and supply chain 
development.

Q2.  As you know, MEP currently functions with equal contributions from 
the Federal government, State government, and manufacturers. However, 
at least 23 state MEP centers reported a decrease or elimination of 
state MEP funding in 2009 alone, and some centers have been operating 
without state funding for years which increases the pressure on the 
small manufacturer to maintain the program level. I have introduced 
legislation with Rep. Ehlers this year that would reduce the matching 
requirements for small manufacturers--are these structural changes 
something the administration is considering as it grows the MEP 
program?

A2. I recognize the fiscal constraints many states are currently facing 
and the potential impact on the MEP centers' ability to meet their cost 
share obligations. The matching requirement of the MEP program is a 
core component of the program's success because it encourages 
significant local and state buy-in into the program. I understand there 
are proposals, such as yours, proposing changes and flexibility to the 
cost share. I am happy to work with you and the National Institute of 
Standards and Technology to explore ways to address situations in which 
states are in particularly dire circumstances.



                              Appendix 2:

                              ----------                              


                      Re-Energyse Fudning Profile



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Appendix 2:

                              ----------                              


                  Scientific Integrity Correspondence


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





</pre></body></html>
